APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Ninth Circuit
(December 7, 2020) . . . . . . . . . . . App. 1
Appendix B Order Granting Motion to Dismiss
Without Prejudice in the United
States District Court Northern
District of California San Jose
Division
(October 4, 2018) . . . . . . . . . . . . . App. 29
Appendix C Judgment in the United States
District Court Northern District
California
(October 12, 2018) . . . . . . . . . . . . App. 57
Appendix D Order Denying Petition for Panel
Rehearing and Rehearing En Banc in
the United States Court of Appeals for
the Ninth Circuit
(January 13, 2021) . . . . . . . . . . . App. 59
Appendix E U.S. Constitution Amendment IV
. . . . . . . . . . . . . . . . . . . . . . . . . . . App. 61
Appendix F 42 U.S. Code § 1983. Civil action for
deprivation of rights . . . . . . . . . . App. 62

ii
Appendix G City of San Jose Municipal Code
Chapter 17.23 - Rental Dispute
Mediation and Arbitration for
Dwelling Units Excluding
Mobilehomes and Mobilehome Parks
. . . . . . . . . . . . . . . . . . . . . . . . . . . App. 63
Part 3 - Initial Rent and Rent
Increases; Petition and Hearing
Process. . . . . . . . . . . . . . . . . . . . . App. 63
Part 5 - Enforcement . . . . . . . . . App. 64
Part 6 - Evictions - Rent Stabilized
Units . . . . . . . . . . . . . . . . . . . . . . App. 65
Part 7 - Tenant Buyout Agreements
. . . . . . . . . . . . . . . . . . . . . . . . . . . App.67
Part 8 - Fair Return Standard
. . . . . . . . . . . . . . . . . . . . . . . . . . . App. 67
Part 9 - Rent Registry. . . . . . . . . App. 83
Appendix H City of San Jose, California
Regulations for Chapter 17.23
Including Apartment Rent Ordinance
. . . . . . . . . . . . . . . . . . . . . . . . . . . App. 85
Chapter 4 Registration and Fee
. . . . . . . . . . . . . . . . . . . . . . . . . . . App. 85

iii
Chapter 8 Landlord Fair Return
Petitions; Hearings Authorized
. . . . . . . . . . . . . . . . . . . . . . . . . . . App. 86
Chapter 9 Landlord Petitions for Pass
Through of Charges for Specified
Capital Improvements; Administrative
Decisions Authorized . . . . . . . . . App. 87

App. 1

APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-16995
D.C. No. 5:18-cv-02024-LHK
[Filed December 7, 2020]
______________________________________
DEAN HOTOP; KEN SCHNEEBELI; JEFF
ZELL; SHERMAN ZELL; LOIS ZELL;
LOUISE PETER; SEIGI TADOKORO; PAT
CREMA; SEAN RHINEHART; SHUCHUN
HUANG; JAMES CAMPAGNA; SAL RUIZ;
ISAAC AGAM; STEVE MAHL; LLOYD KIP;
ROBERTA MOORE; DENG LIU; SHASHA
CHEN; SMALL PROPERTY OWNERS
ASSOCIATION - SAN JOSE; ZHONGHUA
PEI; XIAOCONG YE; XIAODONG LI,

)
)
)
)
)
)
)
)
)
)
)
Plaintiffs-Appellants,
)
)
v.
)
)
CITY OF SAN JOSE, a municipal
)
corporation,
)
Defendant-Appellee.
)
_______________________________________)

App. 2
OPINION
Appeal from the United States District Court for the
Northern District of California Lucy H. Koh, District
Judge, Presiding
Argued and Submitted January 9, 2020 Pasadena,
California
Filed December 7, 2020
Before: Paul J. Watford, Mark J. Bennett, and
Kenneth K. Lee, Circuit Judges.
Per Curiam Opinion;
Concurrence by Judge Bennett
SUMMARY*
Civil Rights
The panel affirmed the district court’s dismissal of
an action alleging that certain provisions of the City of
San
Jose’s 2017 Ordinance and implementing
regulations, pertaining to the City’s Apartment Rent
Ordinance, violated plaintiffs’ Fourth, Fifth, and
Fourteenth Amendment rights, as well as the
Contracts Clause.
The challenged provisions and regulations require
landlords to disclose information about rent stabilized
units to the City and condition landlords’ ability to

*

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App. 3
increase rents on providing that information.
Specifically, landlords are required to complete an
annual registration of their rent stabilized units,
re-register whenever a tenant vacates a rent-stabilized
unit, and comply with certain requirements when
offering to buy out a tenant’s lease.
The panel first held that plaintiffs failed to
adequately allege that they have a reasonable
expectation of privacy in the information contained in
the business records at issue. The panel noted that the
complaint did not contain any factual allegations
distinguishing the information at issue in this case
from the similar information landlords already provide
to the City in other contexts under regulations whose
validity has not been challenged. Because plaintiffs had
not plausibly alleged that the challenged provisions
effected a search, their Fourth Amendment claim
failed.
The panel held that the ordinance did not work any
type of per se taking, for example by a physical
invasion or by depriving the property owner of all
beneficial use of the property. Thus, any takings claim
had to be judged under the multi-factor test enunciated
in Penn Central Transportation Co. v. New York City,
438 U.S. 104 (1978). The panel agreed with the district
court that the operative complaint alleged no facts that
would plausibly assert a regulatory taking.
The panel determined that plaintiffs failed to state
a Contacts Clause claim. The panel further rejected
plaintiffs’ equal protection claim and the substantive
and procedural due process claims. Finally, the panel
determined that the 2017 Ordinance did not violate the

App. 4
“unconstitutional conditions” doctrine, as enunciated in
Koontz v. St. Johns River Water Management District,
570 U.S. 595 (2013).
Concurring in part II and concurring in the result,
Judge Bennett stated that he would deny plaintiffs’
Fourth Amendment claim because the City had
conducted no Fourth Amendment search. The Supreme
Court’s Fourth Amendment jurisprudence has
consistently found that government collection of
information effects a search only when it involves some
physical intrusion or its functional equivalent. Judge
Bennett fully concurred with the majority’s opinion
that the remaining claims also lacked merit.
COUNSEL
Frank A. Weiser (argued), Los Angeles, California, for
Plaintiffs-Appellants.
Malgorzata Laskowska (argued), Senior Deputy City
Attorney; Ardell Johnson, Chief Deputy City Attorney;
Richard Doyle, City Attorney; Office of the City
Attorney, San Jose, California; for Defendant-Appellee.
Barbara J. Parker, City Attorney; Maria Bee, Chief
Assistant City Attorney; Erin Bernstein, Supervising
Deputy City Attorney; Jaclyn Harris, Neighborhood
Law Corps Attorney; Kent Qian, Deputy City Attorney;
Office of the City Attorney, Oakland, California; for
Amicus Curiae League of California Cities.
Whitty Somvichian and Brandon V. Stracner, Cooley
LLP,
Palo Alto, California; Nadia Aziz, Law
Foundation of Silicon Valley; for Amici Curiae Law

App. 5
Foundation of Silicon Valley and Sacred Heart
Community Service.
OPINION
PER CURIAM:
In 2017, the City of San Jose passed Ordinance
30032 (“Ordinance”) to amend the City’s Apartment
Rent Ordinance, and adopted Resolution 78413 to
establish regulations for implementing the Ordinance
(“Regulations”). Certain provisions of the Ordinance
and Regulations require landlords to disclose
information about rent stabilized units to the City and
condition landlords’ ability to increase rents on
providing that information. These provisions are
challenged by individual apartment owners subject to
the Ordinance and by the Small Property Owners
Association-San Jose, an unincorporated trade
association of San Jose landlords. Plaintiffs sued under
42 U.S.C. § 1983, claiming that the challenged
provisions violate their Fourth, Fifth, and Fourteenth
Amendment rights, as well as the Contracts Clause.
The district court granted the City’s motion to dismiss
plaintiffs’ first amended complaint without prejudice.
Plaintiffs chose to stand on that complaint and now
appeal. Reviewing the district court’s decision de novo,
see Arpin v. Santa Clara Valley Transportation Agency,
261 F.3d 912, 923 (9th Cir. 2001), we affirm.
I
Plaintiffs’ Fourth Amendment claim is predicated
on their theory that the Ordinance and Regulations
violate the prohibition against unreasonable searches

App. 6
by requiring landlords to provide certain information to
the City through the Director of the Department of
Housing.
The claim implicates three different
disclosure requirements applicable to rent stabilized
units.1
First, plaintiffs point to the required annual
registration of rent stabilized units under San Jose
Municipal Code (“SJMC”) § 17.23.900. To complete the
annual registration, § 4.05 of the Regulations requires
landlords to submit to the City, on a City-provided
form, the following information: the address of the
subject unit; the name and address of each landlord of
the unit; the occupancy status and commencement date
of the current tenancy; a history of the rent charged for
use and occupancy of the unit; the amount charged as
a security deposit; the metering status of the unit; the
names of all tenants occupying the unit; and any
household services provided at the start of the current
tenancy. Second, plaintiffs point to the Ordinance’s reregistration requirements. When a tenant vacates a
rent stabilized unit, the landlord must re-register the
unit by submitting a City-approved form that discloses
the following information: the address of the unit; the
reason the prior tenant vacated the unit, if known; the
names of subsequent tenants; the rent charged to
subsequent tenants; and a copy of the rental agreement
between the landlord and subsequent tenants. SJMC
§ 17.23.600(C). Finally, plaintiffs point to the

1

Subject to a few exceptions, a “rent stabilized unit” is a rental
unit “for which a certificate of occupancy was issued on or prior to
September 7, 1979 or that was offered or available for rent on or
before this date.” San Jose Municipal Code § 17.23.167(A).

App. 7
Ordinance’s buyout requirements. A landlord offering
to buy out a tenant’s lease must make certain
mandatory disclosures to the tenant. When a tenant
accepts a landlord’s buyout offer, the landlord must
provide the City with executed copies of the agreement
and disclosure form. SJMC § 17.23.700.
Landlords violating the Ordinance face civil
penalties and misdemeanor criminal charges
punishable by up to six months in jail. SJMC
§ 17.23.500(A).2 Additionally, landlords who fail to
comply with the registration or reregistration
requirements may not increase rent for unregistered
units. SJMC § 17.23.310. Landlords who charge fees or
rents higher than what is allowed by the Ordinance or
Regulations are guilty of a misdemeanor. SJMC
§ 17.23.530.
The first question raised by plaintiffs’ Fourth
Amendment claim is whether the challenged provisions
effect a “search.” A Fourth Amendment search occurs
when the government either physically intrudes upon
“persons, houses, papers, [or] effects” or invades “a
person’s ‘reasonable expectation of privacy’” in one of
the constitutionally enumerated areas. United States v.
Jones, 565 U.S. 400, 405–06 (2012) (quoting Katz v.
United States, 389 U.S. 347, 360 (1967)). With respect
to searches of “papers,” we need not decide whether the
2

Section 17.23.500(A) lists the civil penalties and provides that
violators face “all other remedies provided by law, including those
set forth in Chapter 1.08 of Title 1 of the San Jose Municipal
Code . . . .” Chapter 1.08 in turn provides that violations of any
City Ordinance can be a misdemeanor punishable by fine,
imprisonment of up to six months, or both.

App. 8
Fourth Amendment is implicated only by a physical
inspection of the documents themselves. Even if the
Fourth Amendment is implicated by certain
non-physical intrusions, in that context the plaintiff
must have a reasonable expectation of privacy in the
contents of the documents before the government’s
conduct can be deemed a Fourth Amendment “search.”
And here, as the district court held, plaintiffs failed to
adequately allege that they have a reasonable
expectation of privacy in the information contained in
the business records at issue.3
Plaintiffs’ sole substantive allegation regarding
privacy is that the information they must disclose
under the challenged provisions “constitute plaintiffs’
private business records that is not found in the public
domain.” The district court found this lone allegation,
without additional factual matter, insufficient to
establish a reasonable expectation of privacy in the
information subject to disclosure. The court noted that
San Jose landlords are already required to provide
similar information about rent stabilized units to the
City by other regulations not challenged here. As one
example, when landlords petition to raise the rent by
more than is ordinarily permitted, they must provide
financial information showing their net operating
income in both a “base year” (usually 2014) and the
3

For the first time on appeal, plaintiffs also seek to ground their
Fourth Amendment claim on a “property interest” in their
business records, derived from California Civil Code § 1947.7(g)
and independent of their privacy interests. Because this argument
was not raised in the district court, we decline to address it. See
In re Mortgage Electronic Registration Systems, Inc., 754 F.3d 772,
780 (9th Cir. 2014).

App. 9
current year. SJMC §§ 17.23.800–870. This information
must suffice to show (1) income from all sources,
including rent, laundry, and other services, as well as
interest on tenant deposits; and expenses, including
fees, taxes, utilities, insurance, maintenance,
managerial and administrative costs, and legal fees.
Landlords can establish these items using a variety of
evidence, including “receipts, cancelled checks, and
detailed invoices” (which the Regulations consider “the
best documentation”), as well as tax returns, ledgers,
and insurance claims. Regulations § 8.02.02. As
another example, when landlords petition to pass
through to tenants the cost of capital improvements,
they must provide the number of units affected; the
occupancy status and rent charged for each unit; and
detailed records concerning the improvement itself,
including “invoices and proof of payment” and “[a] copy
of the building permit(s) and final inspection(s).”
Regulations § 9.02.1. Although the details differ, the
information that landlords must submit under these
regulations overlaps to a significant degree with the
information landlords must disclose under the
challenged provisions.
Confronted with this overlap, the district court
concluded that plaintiffs’ lone allegation concerning
privacy does not “explain how the information
implicated by the Ordinance disclosure requirements
differs meaningfully from” the information landlords
already disclose in other contexts. The court thus
dismissed plaintiffs’ Fourth Amendment claim with
leave to amend. As noted, however, plaintiffs did not
amend their complaint, and they rely on the same lone
allegation on appeal.

App. 10
We agree with the district court that plaintiffs’
complaint fails to allege facts plausibly suggesting that
they have a reasonable expectation of privacy in the
information that must be disclosed under the
challenged provisions. The complaint does not contain
any factual allegations distinguishing the information
at issue in this case from the similar information
landlords already provide to the City in other contexts
under regulations whose validity has not been
challenged.
The district court’s ruling is supported by our recent
decision in San Francisco Apartment Association v. City
and County of San Francisco, 881 F.3d 1169 (9th Cir.
2018). In that case, landlords in San Francisco argued
that a similar ordinance, which required landlords to
provide tenant buyout agreements to the city for
inclusion in a publicly searchable database, violated
their right to privacy under the California
Constitution. See id. at 1173–75. Affirming the district
court’s grant of judgment on the pleadings, we held
that the landlords had no “reasonable expectation of
privacy in the information” because they “offer no
explanation why” the information at issue “is more
sensitive or private than other financial information
routinely submitted to the government and made
publicly available” in other contexts. Id. at 1178; see
also In re Facebook, Inc. Internet Tracking Litigation,
956 F.3d 589, 604 n.7 (9th Cir. 2020) (treating as
comparable the reasonable expectation of privacy
under the California Constitution and the Fourth
Amendment). The district court applied the same rule
here: As in San Francisco Apartment Association,
plaintiffs in this case offered no factual allegations

App. 11
plausibly suggesting that they maintain a reasonable
expectation of privacy in information that, generally
speaking, they already disclose to the City in other
contexts.4
Our decision in Patel v. City of Los Angeles, 738
F.3d 1058 (9th Cir. 2013) (en banc), aff’d, 576 U.S. 409
(2015), on which plaintiffs rely, is not to the contrary.
The ordinance challenged in Patel permitted police
officers to perform warrantless, on-demand inspections
of hotel owners’ guest registries. Id. at 1061. But in
that case no one contested that the information
contained in the guest registries was private, for it was
undisputed that hotel owners “do not ordinarily
disclose, and are not expected to disclose, the kind of
commercially sensitive information contained in the
[guest registries].” Id. at 1062. Because there was no
indication in Patel that the hotel owners provided their
guest registries or similar information to the
government in other situations, the plaintiffs did not
need to allege additional facts concerning the private
nature of the information contained in the registries.

4

It bears noting that plaintiffs’ allegations support only a facial
challenge to the regulations at issue; nothing in the complaint
supports a claim that the regulations are invalid as applied to any
of the individual plaintiffs. Thus, the complaint does not allege, for
example, that individual apartment owners have not in the past
petitioned the City to raise rent by more than the ordinary
amount, or to pass through the cost of capital improvements. Nor
does the complaint allege that, even if individual apartment
owners have petitioned the City for those purposes, the
information demanded by those petitions does not actually overlap
with the information that must be disclosed under the challenged
provisions.

App. 12
Here we confront the opposite situation. As a result, for
the reasons discussed above, additional factual
allegations were necessary before the district court
could plausibly infer that plaintiffs maintained a
reasonable expectation of privacy in the information
contained in the business records at issue. And despite
being afforded an opportunity to allege additional facts
in support of their claims, plaintiffs declined to do so.
As we hold that plaintiffs have not plausibly alleged
that the challenged provisions effect a search, their
Fourth Amendment claim fails.
II
Plaintiffs’ remaining claims also lack merit.
A. Fifth Amendment Takings Claim
Plaintiffs contend the Ordinance effects a per se
taking of private property, in violation of the Fifth
Amendment. But the Ordinance does not work any type
of per se taking, for example by a physical invasion,
Loretto v. Teleprompter Manhattan CATV Corp., 458
U.S. 419 (1982), or by depriving the property owner of
all beneficial use of the property, Lucas v. South
Carolina Coastal Council, 505 U.S. 1003 (1992). Thus,
any takings claim must be judged under the
multi-factor test enunciated in Penn Central
Transportation Co. v. New York City, 438 U.S. 104
(1978). These factors include (1) “[t]he economic impact
of the regulation on the claimant,” (2) “the extent to
which the regulation [interferes] with distinct
investment-backed expectations,” and (3) “the
character of the government action.” Id. at 124.

App. 13
Plaintiffs complain of a regulatory taking on appeal,
but as the district court correctly found, the operative
complaint alleges no facts that would plausibly assert
a regulatory taking. Indeed, the only allegation even
arguably relevant to a regulatory taking claim is that
landlords “cannot increase rents on their tenants” if
they fail to comply with the Ordinance and
Regulations. But “when buying a piece of property, one
cannot reasonably expect that property to be free of
government regulation such as zoning, tax
assessments, or . . . rent control.” Rancho de Calistoga
v. City of Calistoga, 800 F.3d 1083, 1091 (9th Cir.
2015). Plaintiffs do not raise a colorable Fifth
Amendment takings claim.
B. Contracts Clause Claim
“The threshold issue [in a Contracts Clause
analysis] is whether the state law has ‘operated as a
substantial impairment of a contractual relationship.’
In answering that question, the Court has considered
the extent to which the law undermines the contractual
bargain, interferes with a party’s reasonable
expectations, and prevents the party from safeguarding
or reinstating his rights.” Sveen v. Melin, 138 S. Ct.
1815, 1821–22 (2018) (citation omitted). As the district
court correctly found, “Plaintiffs include only the vague
allegation that the Ordinance and Regulations affect
plaintiffs’ contracts with their tenants, but plaintiffs do
not specify how the Ordinance disclosure requirements

App. 14
affect those contracts.”5 Plaintiffs have not stated a
Contracts Clause claim.
C. Equal Protection
We review plaintiffs’ equal protection claim under
the rational basis test, as they are not members of a
suspect class. Dandridge v. Williams, 397 U.S. 471, 485
(1970).6 Plaintiffs allege no facts that even arguably

5

For the first time on appeal, plaintiffs specifically argue that the
Ordinance retroactively voids any pass-through contracts. Not
only did plaintiffs fail to raise this argument below, but they do
not point to any allegation in their complaint to support it. Again,
we see no reason to depart from the general rule that we do not
consider issues not raised below. We also note that plaintiffs
requested leave to amend “to specify the contractual relationships
at issue that give rise to the claim.” But after the district court
granted leave to amend, plaintiffs chose not to amend.
6

Plaintiffs claim strict scrutiny applies but offer no reasoned
argument that we can discern in support of that proposition.
Plaintiffs appear to assert that their equal protection claim is
subsumed by their Fourth Amendment claim, which therefore
requires us to apply strict scrutiny to their now subsumed equal
protection claim. Plaintiffs’ reliance for this proposition on a
footnote in Orin v. Barclay, 272 F.3d 1207 (9th Cir. 2001), is
severely misplaced. We treated the equal protection claim as
subsumed in Orin because the plaintiff’s equal protection claim
“appear[ed] to be . . . a First Amendment claim dressed in equal
protection clothing” and because “the substantive guarantees of
the [First] Amendment serve as the strongest protection against
the limitation of these rights” for those “class[es] of persons under
the equal protection guarantee.” Id. at 1213 n.3. We did not
otherwise analyze an Equal Protection claim, let alone state that
strict scrutiny must be applied to an Equal Protection claim made
by individuals that are not members of a suspect class. Plaintiffs
make no argument that “intermediate scrutiny” applies.

App. 15
show the Ordinance’s various distinctions (including
between unit types) are irrational, nor do they argue
this on appeal. That alone is reason to reject their
equal protection claim. That said, we agree with the
district court that the distinctions drawn by the
Ordinance appear easily to survive rational basis
review. For example, the set of units covered by the
Apartment Rent Ordinance was not expanded to
include duplexes because the City would need to
expend significant resources to transition thousands of
new owners into the program. See Woods v. Miller Co.,
333 U.S. 138, 145 (1948) (“[A legislative body] need not
control all rents or none. It can select those areas or
those classes of property where the need seems the
greatest.”); see also Equity Lifestyle Properties, Inc. v.
County of San Luis Obispo, 548 F.3d 1184, 1195 (9th
Cir. 2008) (affirming dismissal of an equal protection
challenge where the regulation of mobile home park
rents satisfied rational basis review as the regulation
was motivated by “distinguishing characteristics
relevant to interests the State has the authority to
implement” (citation omitted)).
D. Substantive and Procedural Due Process
Plaintiffs assert both substantive and procedural
due process claims.7But both require, as a threshold

7

For the first time on appeal, plaintiffs state that their procedural
due process claim relates to how hearing officers are selected, as
described in § 11.01.1 of the Regulations. While plaintiffs’
complaint and first amended complaint mention “procedural due
process” in passing, neither alleges any facts relating to the
administrative hearing process or the selection of hearing officers,
and neither references § 11.01.1. Plaintiffs’ opposition to the City’s

App. 16
matter, that plaintiffs show they were deprived of a
“constitutionally protected life, liberty or property
interest.” Shanks v. Dressel, 540 F.3d 1082, 1087 (9th
Cir. 2008) (discussing substantive due process); id. at
1090 (stating that to be entitled to relief under a
procedural due process claim, a plaintiff must establish
(1) a protected liberty or property interest, (2) the
governmental deprivation of that interest, and (3) a
“lack of process”); see also Bd. of Regents of State
Colleges v. Roth, 408 U.S. 564, 569–70 (1972)
(recognizing that the requirements of procedural due
process apply only to those interests encompassed by
the Fourteenth Amendment and that “the range of
interests protected . . . is not infinite”).
We agree with the district court that the first
amended complaint does not articulate how the
Ordinance and Regulations harm plaintiffs’ own liberty
and property interests.8 Plaintiffs argue that the
Ordinance and Regulations infringe on their tenants’
privacy rights, thus forcing plaintiffs to choose between
“disclosing the tenants’ personal information violating

motion to dismiss does not even respond to the City’s argument
that plaintiffs failed to state a procedural due process claim. Once
again, as plaintiffs did not raise this argument below, we decline
to consider it here.
8

For the first time on appeal, plaintiffs assert that their own
property rights are implicated because their business records are
private and protected by Article 1, § 1 of the California
Constitution and California Civil Code § 1947.7(g). Because
plaintiffs did not make this claim in either their complaint or first
amended complaint and did not raise it in opposition to the City’s
motion to dismiss, we do not consider it here.

App. 17
their due process rights (and possibly being sued)” or
not complying with the Ordinance and “suffering
severe . . . sanctions.” This argument does not identify
any harm to plaintiffs’ own liberty or property
interests. And we reject plaintiffs’ claim of a
substantive due process violation flowing from the
alleged “unconstitutional conditions.” As discussed
below, there can be no “unconstitutional conditions”
when there is no unconstitutionality.
E. Unconstitutional Conditions
Finally, plaintiffs contend that the Ordinance
violates the “unconstitutional conditions” doctrine, as
enunciated in Koontz v. St. Johns River Water
Management District, 570 U.S. 595 (2013). “A predicate
for any unconstitutional conditions claim is that the
government could not have constitutionally ordered the
person asserting the claim to do what it attempted to
pressure that person into doing.” Id. at 612. But
whether we view the Ordinance as pressuring or
ordering, plaintiffs’ claim fails, as plaintiffs have shown
no unconstitutionality. The Ordinance’s requirements
violate no Fourth, Fifth, or Fourteenth Amendment
rights of plaintiffs, and thus the pressure the City
exerts through sanctions for non-compliance is
constitutionally irrelevant.
AFFIRMED.

App. 18

BENNETT, Circuit Judge, concurring in part1 and
concurring in the result:
The Fourth Amendment to the Constitution
provides:
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be
violated, and no Warrants shall issue, but upon
probable cause, supported by Oath or
affirmation, and particularly describing the
place to be searched, and the persons or things
to be seized.
U.S. Const. amend. IV. The Ordinance challenged here
requires plaintiffs to record and disclose information
about property leasing to the City of San Jose. The City
neither enters plaintiffs’ houses or places of business to
obtain the information, nor does it seize, intercept, or
surreptitiously obtain any of plaintiffs’ papers or
effects. The City procures no warrants. Instead, the
City provides forms for the plaintiffs to fill out and
return. Like regulators throughout the country at every
level of government, the City penalizes those who fail
to provide the information it requires. Plaintiffs claim
the Ordinance violates the Fourth Amendment. Like
the majority, I agree that it doesn’t. But while the
majority relies on the plaintiffs’ lack of a reasonable
expectation of privacy in the information divulged to

1

I fully concur in Part II of the majority’s opinion.

App. 19
the City,2 I would deny the plaintiffs’ Fourth
Amendment claim for a far more fundamental
reason—the City has conducted no Fourth Amendment
search.3
In Katz v. United States, 389 U.S. 347 (1967), the
Supreme Court famously held that “the Fourth
Amendment protects people, not places.” Id. at 351.
And the Court later adopted Justice Harlan’s
formulation: “[A] person has a constitutionally
protected reasonable expectation of privacy; [and]
electronic as well as physical intrusion into a place that
is in this sense private may constitute a violation of the
Fourth Amendment . . . .” Id. at 360 (Harlan, J.,
concurring); see Terry v. Ohio, 392 U.S. 1, 9 (1968).
Katz, of course, involved a physical intrusion by
government—the placement of a hidden listening
device on a phone booth. 389 U.S. at 348.
Since Katz, the Court has afforded Fourth
Amendment protection in a variety of situations, like a
government agent’s physical manipulation of a carry-on
bag placed in an overhead compartment on a bus, Bond
v. United States, 529 U.S. 334, 338–39 (2000), or the
government obtaining an individual’s cell-site location
information through court orders obtained under the
Stored Communications Act, Carpenter v. United
States, 138 S. Ct. 2206, 2212, 2217 (2018). Part of the

2

I do not expressly disagree with the majority as to its “reasonable
expectation of privacy” analysis, because I do not reach the
question.
3

Plaintiffs do not argue the City “seized” anything.

App. 20
Court’s analysis in these cases involved a person’s
“reasonable expectation of privacy.” But that analysis
comes into play only if there is a search or seizure, like
the Katz concealed listening device, the Bond “tactile
inspection,” or the Carpenter court order. Though the
Court has made clear in recent years that Fourth
Amendment jurisprudence is no longer tied to a
trespass-based analysis, United States v. Jones, 565
U.S. 400, 405 (2012), nothing in the Court’s
jurisprudence suggests reading the necessity of an
actual search or seizure out of the Fourth Amendment.
An individual may have the most reasonable
expectation of privacy in certain information, but the
Fourth Amendment is not implicated until the
government collects that information through a search.
See id. at 408 n.5 (“[T]he obtaining of information is not
alone a search unless it is achieved by . . . a trespass or
invasion of privacy.”).
Governments (federal, state, and local) regularly
collect information from citizens. See Whalen v. Roe,
429 U.S. 589, 605 (1977). These demands for
information can be for statistical purposes, in relation
to the collection of taxes and fees, to help determine
whether government should or must provide a
requested benefit, to make certain that those who hold
licenses or permits are adhering to their terms, to
monitor and maintain public health, or as part of a
regulatory structure. These are only a few examples.
Often the information is confidential, nonpublic, and
not known or available to the government otherwise.
And governments regularly impose sanctions for failing
to transmit the information (like losing a benefit or
facing a penalty). Other constitutional provisions

App. 21
regulate these types of information demands,4 but the
Fourth Amendment does not. Though the Fourth
Amendment has developed since Katz, nothing in the
Court’s jurisprudence is at odds with Katz’s reminder
that “the Fourth Amendment cannot be translated into
a general constitutional ‘right to privacy.’” 389 U.S. at
350; see id. (“Other provisions of the Constitution
protect personal privacy from other forms of
governmental invasion.”).
Rather, the Supreme Court’s Fourth Amendment
jurisprudence has consistently found that government
collection of information effects a search only when it
involves some physical intrusion or its functional
equivalent. Cf. Bond, 529 U.S. at 337 (“Physically
invasive inspection is simply more intrusive than
purely visual inspection.”). Trespass on private
property can obviously constitute a search. Jones, 565
U.S. at 404–05. Newer investigatory techniques, if they
function like physical intrusions, can also constitute
searches. So, in Katz, the government effected a search
when it placed a hidden listening device that
electronically intruded into a closed phone booth to
overhear private conversations. 389 U.S. at 353; id. at
362 (Harlan, J., concurring). And in Kyllo v. United
States, 533 U.S. 27 (2001), the government’s collection
4

The Due Process Clauses of the Fifth and Fourteenth
Amendments can be implicated by government regulation. See,
e.g., Whalen, 429 U.S. at 598–604. Likewise, the First
Amendment’s associational freedom can
be burdened by
government collection of information. E.g., Shelton v. Tucker, 364
U.S. 479, 480, 487–88 (1960) (finding unconstitutional an
Arkansas law requiring public schoolteachers to submit an
affidavit listing their organizational associations).

App. 22
of information using a sense-enhancing device “that is
not in general public use, to explore details of the
home that would previously have been unknowable
without physical intrusion,” also constituted a search.
Id. at 40. Such a result “assures preservation of that
degree of privacy against government that existed
when the Fourth Amendment was adopted.” Id. at 34.
As Justice Scalia, writing for the Court, specifically
noted:
When the Fourth Amendment was adopted, as
now, to “search” meant “[t]o look over or through
for the purpose of finding something; to explore;
to examine by inspection; as, to search the house
for a book; to search the wood for a thief.”
Id. at 32 n.1 (quoting N. Webster, An American
Dictionary of the English Language 66 (1828) (reprint
6th ed. 1989)).
The government may also conduct a constructive
search by collecting information through an “orderly
taking under compulsion of process.” United States v.
Morton Salt Co., 338 U.S. 632, 652 (1950); Hale v.
Henkel, 201 U.S. 43, 76 (1906) (“While a search
ordinarily implies a quest by an officer of the law . . .
the substance of the offense is the compulsory
production of private papers, whether under a search
warrant or a subpoena duces tecum . . . .”). In this
context, it is the government process effecting access to
the protected papers and records that implicates the
Fourth Amendment. Court orders directing the
production of information fall in this category of
searches, Carpenter, 138 S. Ct. at 2217; Boyd v. United
States, 116 U.S. 616, 624 (1886), as do administrative

App. 23
subpoenas, Okla. Press Publ’g Co. v. Walling, 327 U.S.
186, 209–10 (1946). But no Supreme Court case has
found a search based on a requirement that a person
transmit information as part of a regulatory process,
even if there are penalties for noncompliance, and even
if the person has a reasonable expectation of privacy in
the requested information.
Plaintiffs rely on our en banc decision in Patel v.
City of Los Angeles (Patel I), 738 F.3d 1058 (9th Cir.
2013) (en banc), aff’d, 576 U.S. 409 (2015), discussing
administrative searches. But Patel I serves only to
confirm the Fourth Amendment’s requirement of a
physical intrusion or its equivalent. The challenged
ordinance in Patel I “authorize[d] police officers to
inspect hotel guest records at any time without consent
or a search warrant.” Id. at 1061. Crucial to our
application of the Fourth Amendment to the
warrantless inspection scheme was the method used to
obtain the record information:
A police officer’s non-consensual inspection of
hotel guest records plainly constitutes a “search”
under either the property-based approach of
Jones or the privacy-based approach of Katz.
Such inspections involve both a physical
intrusion upon the hotel’s private papers and an
invasion of the hotel’s protected privacy interest
in those papers for the purpose of obtaining
information. Whether the officers rifle through
the records in paper form, or view the records on
a computer screen, they are doing so to obtain
the information contained in the records.

App. 24
Id. at 1062 (citation omitted). Inspection of the records
intruded upon both the property rights and the privacy
interests of the hotel, since the hotel’s property rights
in the records gave rise to its expectation of privacy.
Id. at 1061. Thus, there was a search only because the
ordinance authorized police officers to inspect, on
demand, records physically kept at hotels.
The Supreme Court affirmed our Patel I decision
and expressed no disagreement with our search
analysis. See City of Los Angeles v. Patel (Patel II), 576
U.S. 409, 412 (2015). As the Supreme Court observed:
“The en banc court first determined that a police
officer’s nonconsensual inspection of hotel records
under [the ordinance] is a Fourth Amendment search
because the business records . . . are the hotel’s private
property and the hotel therefore has the right to
exclude others from prying into their contents.” Id. at
414 (internal quotation marks and brackets omitted).
Further, the Supreme Court’s finding of a Fourth
Amendment violation turned on the ordinance’s lack of
an opportunity for judicial review prior to inspections.
Id. at 421. Logically, the inverse also holds true—in the
absence of inspections, there is no need for any
precompliance judicial review, and the Fourth
Amendment is no longer implicated. Without the
statutorily authorized onsite inspection demands, there
would have been no search in Patel I.
By contrast, the Ordinance here requires landlords
to disclose information to the City’s Department of
Housing as part of a regulatory process. There is no
inspection of any kind. Nothing in the Supreme Court’s
opinion in Patel II (or our en banc opinion in Patel I)

App. 25
suggests that there would have been a search had there
been no physical inspection of private business records
and, instead, a statutory requirement that hotels
transmit information to the city under a regulatory
scheme.
But in the majority’s view, the Ordinance does not
violate the Fourth Amendment because there was no
reasonable expectation of privacy in the information
sought:
Even if the Fourth Amendment is implicated by
certain non-physical intrusions, in that context
the plaintiff must have a reasonable expectation
of privacy in the contents of the documents
before the government’s conduct can be deemed
a Fourth Amendment “search.” And here, as the
district court held, plaintiffs failed to adequately
allege that they have a reasonable expectation of
privacy in the information contained in the
business records at issue.
Majority Opinion at 7. First asking, as the majority
does here, whether plaintiffs can show that they
possess a reasonable expectation of privacy in the
disclosed information puts the cart before the horse in
a manner untethered from the language of the Fourth
Amendment. See Entick v. Carrington, 19 How. St. Tr.
1029, 1066, 95 Eng. Rep. 807 (1765) (“[T]he eye cannot
by the laws of England be guilty of a trespass, yet
where private papers are removed and carried away,
the secret nature of those goods will be an aggravation
of the trespass.”). What first determines whether
government action that obtains information implicates
the Fourth Amendment is not the nature of the

App. 26
information requested; it is the method and manner of
the collection.5 Cf. Grady v. North Carolina, 575 U.S.
306, 310 (2015) (“The State’s program is plainly
designed to obtain information. And since it does so by
physically intruding on a subject’s body, it effects a
Fourth Amendment search.”).
Though the majority reaches the correct ultimate
result, the harm in its approach is manifest. As noted
above, government requires its citizens to provide
information all the time. Sometimes it is part of a
regulated activity scheme, like property rental.
Sometimes it is part of obtaining a service or benefit (a
driver’s license, a business license, a title registration,
a passport). Sometimes it is just part of everyday life.

5

I acknowledge that the Supreme Court in Minnesota v. Carter,
525 U.S. 83 (1998), elected to settle the open legal question of
whether a temporary visitor to a home for business reasons could
legitimately expect privacy and thus invoke the Fourth
Amendment, without first determining whether the police
observation into the home in that case was a search. Id. at 91. In
Carter, there were strong prudential reasons for deciding the
temporary visitor issue first—that question was necessary to
address the lower court’s incorrect standing analysis, id. at 87, and
it had broad ramifications for who could bring a Fourth
Amendment claim. Here, the majority’s decision to analyze the
plaintiffs’ expectations of privacy lacks any such justification. We
should not set the stage for future Fourth Amendment challenges
based on information requests, or what the majority describes as
“non-physical intrusions.” Rather, the prudent course would be to
answer the seminal question of whether an information request
without inspection effects a search, and to answer that seminal
question consistent with the text of the Fourth Amendment. In
essence, the majority does the reverse of what the Court did in
Carter—leaving open a door that should be shut, rather than
appropriately shutting it.

App. 27
For most of its actions, the government, if challenged,
need show only that its activities are “rationally
related to legitimate government interests.”
Washington v. Glucksberg, 521 U.S. 702, 728 (1997).
But if other courts follow the majority’s approach here,
anyone who must provide information to government
can lodge a Fourth Amendment challenge to the
requirement based on their “reasonable expectation of
privacy” in the information sought. Allowing a Fourth
Amendment claim to proceed with such allegations of
privacy, but with no plausible allegation of an actual
Fourth Amendment search, will subject government at
every level to inappropriate judicial scrutiny of its
actions—especially when it “conditions” benefits on the
reporting of information. 6 And this, contrary to the
very teachings of Katz, will cause the Fourth
Amendment to be translated into a general
constitutional right to privacy.
As there was no Fourth Amendment search here,
irrespective of whether plaintiffs had an “actual
(subjective) expectation of privacy . . . that society is
prepared to recognize as ‘reasonable,’” Katz, 389 U.S. at
361 (Harlan, J., concurring), we should have rejected
plaintiffs’ Fourth Amendment claim on that ground. By
failing to do so, we have saddled both government and
judges with a constitutionally inappropriate burden.
6

Keep in mind that part of plaintiffs’ claim here was based on
“unconstitutional conditions.” The majority rightly rejected the
“unconstitutional conditions” claim, but its Fourth Amendment
analysis continues to
allow “unconstitutional conditions”
challenges to any benefit conditioned on reporting information, so
long as a plaintiff can assert some expectation of privacy in the
information.

App. 28
For that reason, I concur only in the result of Part I of
the majority’s opinion.

App. 29

APPENDIX B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
Case No. 18-CV-02024-LHK
[Filed October 4, 2018]
________________________________
DEAN HOTOP, et al.,
)
)
Plaintiffs,
)
)
v.
)
)
CITY OF SAN JOSE,
)
)
Defendant
)
_________________________________)
ORDER GRANTING MOTION TO DISMISS
WITHOUT PREJUDICE
Re: Dkt. No. 24
Plaintiffs, who are landlords in the City of San Jose
(“City”), challenge disclosure requirements contained in
the City’s rent control ordinance. Plaintiffs’ first
amended complaint (“FAC”) alleges that the disclosure
requirements violate numerous provisions of the
United States Constitution. ECF No. 15. The City
moves to dismiss Plaintiffs’ FAC for failure to state a

App. 30
claim. ECF No. 24. Having considered the parties’
motions, the record in this case, and the applicable law,
the Court GRANTS the City’s motion to dismiss
Plaintiffs’ FAC without prejudice.
I.

BACKGROUND
A. Factual Background

Plaintiffs are “long standing apartment owners and
operators in the City of San Jose” and the Small
Property Owners Association - San Jose (“SPOA-SJ”),
a trade association of San Jose landlords. FAC ¶ 3–4.
The City is a municipal corporation. Id. ¶ 6.
On November 28, 2017, the City passed Ordinance
No. 30032 to amend the City’s Apartment Rent
Ordinance (“Ordinance”), located at Chapter 17.23 of
Title 17 of the City’s municipal code. Id. ¶ 8; see Ex. A
(text of Ordinance). The revised Ordinance became
effective December 29, 2017. Ex. A at Cover. On
November 14, 2017, the City adopted Resolution 78413,
which amended the City’s regulations (the
“Regulations”) related to the implementation of the
Ordinance. FAC ¶ 9; see FAC, Ex. B (text of
Regulations amendments). Plaintiffs allege that
Plaintiffs are subject to the Ordinance and Regulations,
and challenge certain information disclosure
requirements contained therein. Id. ¶ 10. The
Ordinance and Regulations are attached to Plaintiffs’
FAC; accordingly, the Court considers the text of the
Ordinance and Regulations as part of the FAC. See
Fed. R. Civ. P. 10(c) (“A copy of a written instrument
that is an exhibit to a pleading is a part of the pleading

App. 31
for all purposes.”). Three information disclosure
requirements are at issue.
First, the Ordinance establishes a “Rent Registry”
requirement (the “Registry”). FAC ¶ 11. Under the
Registry provision, landlords subject to the Ordinance
“shall complete and submit to the Director a
registration for each Rent Stabilized Unit on a City
approved form, annually unless some other interval is
specified by the City in the Regulations.” San Jose,
Cal., Code § 17.23.900(A). A Rent Stabilized Unit is
defined as “a Rental Unit in any Guesthouse or in any
Multiple Dwelling building for which a certificate of
occupancy was issued on or prior to September 7, 1979
or that was offered or available for rent on or before
this date.” Id. at § 17.23.167(A). “Rental Units in a
building containing one (1) or two (2) dwelling units”
are not considered Rent Stabilized Units, and are thus
not subject to the Registry. Id. at § 17.23.167(B)(4). Per
the Regulations, a covered landlord must include on
the Registry form the unit’s address, “occupancy status
. . . and if occupied, the commencement date of the
current tenancy,” the “[h]istory of Rent charged” for the
unit, the amount of the security deposit charged, the
number and names of the current tenants, and the
“[h]ousehold services that are being provided at the
inception of the tenancy.” FAC ¶ 12; see Ex. B at 5.
Second, the Ordinance requires covered landlords to
give the City a copy of any “Notice of Termination” the
landlords issue to tenants. FAC ¶ 14. A covered
landlord must also inform the City when the tenant
vacates the unit:

App. 32
Unless the Landlord is already obligated to
re-register the Rent Stabilized Unit on vacancy
or re-rental pursuant to the Regulations, once a
Tenant Household has vacated a Rent Stabilized
Unit such Landlord shall be required to provide
the Director with the following information in a
form approved by the Director, subject to
California Civil Code 1947.7, as amended:
1. The amount of Rent that the subsequent
Tenant is actually paying each month; []
2. The physical address of the Rent Stabilized
Unit; []
3. The name of each subsequent tenant; []
4. A copy of the written rental agreement (if
any) between the Landlord and Tenant; []
5. The reason, the prior Tenant vacated the
Rent Stabilized Unit, if known; and
6. Such other information as may be reasonably
requested by the City.
San Jose, Cal., Code § 17.23.600(C). The Ordinance
further provides that “Personally-identifying
information about Tenants and Tenant Households
received by the City pursuant to this Section shall be
used for investigation and prosecution of violations of
the Municipal Code or other applicable laws.” Id. at
§ 17.23.600(D).
Third, the Ordinance imposes disclosure
requirements related to buyout agreements. FAC ¶ 16.
Specifically, in order “to increase the fairness of Buyout

App. 33
Offers and Agreements,” the Ordinance “require[es]
Landlords provide Tenants with a City Disclosure form,
and permit[s] Tenants to rescind Buyout Agreements,
provided conditions are met, within forty-five (45) days
of executing the Buyout Agreement.” San Jose, Cal.,
Code § 17.23.700. The Ordinance also aims “to obtain
data relating to the prevalence of Buyout Agreements,
so as to monitor the level of tenant displacement, and
regulate compliance with the purposes of this Chapter.”
Id.
Plaintiffs allege that the Ordinance—in particular
its disclosure requirements—violates multiple
provisions of the United States Constitution, although
Plaintiffs do not separate their causes of action in the
FAC. See FAC ¶ 21 (bringing one claim for relief for a
violation of 42 U.S.C. § 1983). Under the single heading
“Violation of Civil Rights Under 42 U.S.C. Section
1983,” Plaintiffs assert the following alleged
constitutional violations: (1) facial and as-applied
claims for unreasonable search and seizure under the
Fourth and Fourteenth Amendments of the United
States Constitution; (2) facial and as-applied claims for
imposition of unconstitutional conditions under the
Fourth and Fourteenth Amendments; (3) facial and as
applied takings claims under the Fifth Amendment;
(4) an equal protection claim under the Fourteenth
Amendment; and (5) violation of the Contracts Clause.
Id. ¶¶ 21-29. Plaintiffs request damages in an
unspecified amount, declaratory and injunctive relief,
and attorney’s fees and costs. Id.

App. 34
B. Procedural History
On April 3, 2018, Plaintiffs filed a Complaint
against the City. ECF No. 1. On June 4, 2018, the City
filed a motion to dismiss Plaintiff’s Complaint. ECF No.
14. Then, on June 15, 2018, Plaintiffs filed the FAC.
ECF No. 15. The Court found that the City’s motion to
dismiss Plaintiff’s Complaint was moot. ECF No. 16.
Then, on July 6, 2018, the City filed the instant
motion to dismiss the FAC. ECF No. 24 (“Mot.”). The
City also requested the Court take judicial notice of six
documents. ECF No. 24-1. On August 10, 2018,
Plaintiffs filed an opposition, ECF No. 31 (“Opp.”), and
on September 7, 2018, the City filed a Reply. ECF No.
33 (“Reply”).
II.

LEGAL STANDARD
A. Motion to Dismiss Under Rule 12(b)(6)

Rule 8(a)(2) of the Federal Rules of Civil Procedure
requires a complaint to include “a short and plain
statement of the claim showing that the pleader is
entitled to relief.” A complaint that fails to meet this
standard may be dismissed pursuant to Federal Rule
of Civil Procedure 12(b)(6). The United States Supreme
Court has held that Rule 8(a) requires a plaintiff to
plead “enough facts to state a claim to relief that is
plausible on its face.” Bell Atl. Corp. v. Twombly, 550
U.S. 544, 570 (2007). “A claim has facial plausibility
when the plaintiff pleads factual content that allows
the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Ashcroft
v. Iqbal, 556 U.S. 662, 678 (2009). “The plausibility
standard is not akin to a probability requirement, but

App. 35
it asks for more than a sheer possibility that a
defendant has acted unlawfully.” Id. (internal
quotation marks omitted). For purposes of ruling on a
Rule 12(b)(6) motion, a court “accept[s] factual
allegations in the complaint as true and construe[s] the
pleadings in the light most favorable to the nonmoving
party.” Manzarek v. St. Paul Fire & Marine Ins. Co.,
519 F.3d 1025, 1031 (9th Cir. 2008).
The Court, however, need not accept as true
allegations contradicted by judicially noticeable facts,
see Shwarz v. United States, 234 F.3d 428, 435 (9th
Cir. 2000), and it “may look beyond the plaintiff’s
complaint to matters of public record” without
converting the Rule 12(b)(6) motion into a motion for
summary judgment, Shaw v. Hahn, 56 F.3d 1128, 1129
n.1 (9th Cir. 1995). Nor must the Court “assume the
truth of legal conclusions merely because they are cast
in the form of factual allegations.” Fayer v. Vaughn,
649 F.3d 1061, 1064 (9th Cir. 2011) (per curiam)
(internal quotation marks omitted). Mere “conclusory
allegations of law and unwarranted inferences are
insufficient to defeat a motion to dismiss.” Adams v.
Johnson, 355 F.3d 1179, 1183 (9th Cir. 2004).
B Leave to Amend
If the Court determines that the complaint should
be dismissed, it must then decide whether to grant
leave to amend. Under Rule 15(a) of the Federal Rules
of Civil Procedure, leave to amend “should be freely
granted when justice so requires,” bearing in mind that
“the underlying purpose of Rule 15 . . . [is] to facilitate
decision on the merits, rather than on the pleadings or
technicalities.” Lopez v. Smith, 203 F.3d 1122, 1127

App. 36
(9th Cir. 2000) (en banc). When dismissing a complaint
for failure to state a claim, “a district court should
grant leave to amend even if no request to amend the
pleading was made, unless it determines that the
pleading could not possibly be cured by the allegation
of other facts.” Id. at 1130 (quoting Doe v. United
States, 58 F.3d 494, 497 (9th Cir. 1995)). Nonetheless,
a court may in its discretion “deny leave to amend due
to ‘undue delay, bad faith or dilatory motive on the part
of the movant, repeated failure to cure deficiencies by
amendments previously allowed, undue prejudice to
the opposing party. . . , [and] futility of amendment.’”
Leadsinger, Inc. v. BMG Music Pub., 512 F.3d 522, 532
(9th Cir. 2008) (alterations in original) (quoting Foman
v. Davis, 371 U.S. 178, 182 (1962)).
C. Judicial Notice
In support of the City’s motion to dismiss, the City
has requested the Court to take judicial notice of six
documents. ECF No. 24-1. The documents are: (1) the
minutes of two meetings of the San Jose City Council
in 2016 and 2017; (2) two memoranda written by the
Director of the San Jose Department of Housing before
the City Council meetings, both of which provide
analysis and recommendations to the San Jose Mayor
and City Council relating to the Ordinance; (3) the
original San Jose Rental Dispute Mediation and
Arbitration Ordinance adopted by the City in 1979; and
(4) Section 605 of the San Jose City Charter. Id. at 2.
Plaintiffs do not oppose this request or dispute the
authenticity of the six documents. See generally Opp.
The Court may take judicial notice of matters that
are either “generally known within the trial court’s

App. 37
territorial jurisdiction” or “can be accurately and
readily determined from sources whose accuracy cannot
reasonably be questioned.” Fed. R. Evid. 201(b). Public
records, including judgments and other filed
documents, are proper subjects of judicial notice. See,
e.g., United States v. Black, 482 F.3d 1035, 1041 (9th
Cir. 2007) (“[Courts] may take notice of proceedings in
other courts, both within and without the federal
judicial system, if those proceedings have a direct
relation to matters at issue.”); Rothman v. Gregor, 220
F.3d 81, 92 (2d Cir. 2000 (taking judicial notice of a
filed complaint as a public record).
However, to the extent any facts in documents
subject to judicial notice are subject to reasonable
dispute, the Court will not take judicial notice of those
facts. See Lee v. City of L.A., 250 F.3d 668, 689 (9th Cir.
2001) (“A court may take judicial notice of matters of
public record . . . . But a court may not take judicial
notice of a fact that is subject to reasonable dispute.”
(internal quotation marks and citation omitted)),
overruled on other grounds by Galbraith v. Cty. of
Santa Clara, 307 F.3d 1119 (9th Cir. 2002).
The Court agrees with the City that all six
documents are subject to judicial notice. As public
records, the City Council minutes, prior version of the
Ordinance, and San Jose City Charter are all subject to
judicial notice. See Sumner Peck Ranch, Inc. v. Bureau
of Reclamation, 823 F. Supp. 715, 724 (E.D. Cal. 1993)
(taking judicial notice of minutes of government agency
board meeting); Catholic League for Religious & Civil
Rights v. City & Cty. of S.F., 464 F. Supp. 2d 938 (N.D.
Cal. 2006) (taking judicial notice of municipal

App. 38
legislative body’s resolutions). Moreover, the
memoranda by the Director of the Department of
Housing are also matters of public record, and the
Court will take judicial notice of the two memoranda to
the extent that the facts therein are not subject to
reasonable dispute. Lee, 250 F.3d at 689; see also
Comm. for Reasonable Regulation of Lake Tahoe v.
Tahoe Reg’l Planning Agency, 311 F. Supp.2d 972, 1000
(D. Nev. 2004) (taking judicial notice of memoranda
and reports prepared by government agency staff).
III.

DISCUSSION

In its motion to dismiss, the City contends that
Plaintiffs’ FAC should be dismissed because (1)
Plaintiffs lack standing to assert claims on behalf of
their tenants, Mot. at 9; (2) the Court lacks subject
matter jurisdiction over Plaintiffs’ Takings Clause
claims, Mot. at 9–11; (3) Plaintiffs’ as-applied claims
should be dismissed because the FAC does not allege
that the City applied the disclosure requirements to
Plaintiffs, Mot. at 11; and (4) Plaintiffs fail to allege
facts sufficient to state any of Plaintiffs’ other
constitutional claims. Mot. at 11–22. For the reasons
stated below, the Court GRANTS the City’s motion to
dismiss.
As an initial matter, the City contends that
Plaintiffs have failed to allege that the City has
actually applied the rent registry to Plaintiffs and their
properties, and that the Court must therefore dismiss
Plaintiffs’ as-applied claims. Mot. at 11. “[A] facial
challenge is a challenge to an entire legislative
enactment or provision.” Hoye v. City of Oakland, 653
F.3d 835, 857 (9th Cir. 2011). By contrast, an

App. 39
as-applied claim “challenges only one of the rules in a
statute, a subset of the statute’s applications, or the
application of the statute to a specific factual
circumstance.” Id. “That the statute has not been
applied to [a plaintiff] does not preclude [the plaintiff]
from bringing a pre-enforcement, as-applied challenge.”
Isaacson v. Horne, 716 F.3d 1213, 1230 n.15 (9th Cir.
2013). Although Plaintiffs do not clearly articulate the
differences between Plaintiffs’ as-applied and facial
challenges, the City points to no authority requiring
Plaintiffs to specifically plead that the City has already
applied a statute to them. Cf. Mot. at 11. Moreover,
“the distinction [between facial and as-applied
challenges] matters primarily to the remedy
appropriate if a constitutional violation is found.”
Isaacson, 716 F.3d at 1230.
Regardless of how Plaintiffs’ claims are construed,
Plaintiffs fail to allege facts sufficient to state any of
the claims Plaintiffs assert. As stated above, under the
single heading “Violation of Civil Rights Under 42
U.S.C. Section 1983,” Plaintiffs assert the following
alleged constitutional violations: (1) facial and
as-applied claims for unreasonable search and seizure
under the Fourth and Fourteenth Amendments of the
United States Constitution; (2) facial and as-applied
claims for imposition of unconstitutional conditions
under the Fourth and Fourteenth Amendments;
(3) facial and as applied takings claims under the Fifth
Amendment; (4) an equal protection claim under the
Fourteenth Amendment; and (5) violation of the
Contracts Clause. Id. ¶¶ 21-29. The Court addresses
each in turn. As the Court notes below where relevant,
Plaintiffs’ briefing also appears to raise constitutional

App. 40
claims not articulated in the FAC or to recharacterize
claims in the FAC.
A. Fourth Amendment Search and Seizure
Plaintiffs allege that the Ordinance violates
Plaintiffs’ Fourth Amendment rights because the
Ordinance requires landlords to divulge their “private
business records . . . not found in the public domain.”
FAC ¶¶ 17, 23. As with Plaintiffs’ other allegations,
Plaintiffs do not allege which of the three Ordinance
disclosure requirements—the Registry, the termination
notice disclosure, or the buyout agreement
disclosure—violates the Fourth Amendment, or
whether all three do. The City contends that Plaintiffs’
Fourth Amendment claim should be dismissed because
Plaintiffs lack a reasonable privacy interest in the
information the Ordinance requires landlords to
submit. Mot. at 17.
The Fourth Amendment protects individuals
against “unreasonable searches and seizures.” City of
Los Angeles v. Patel, 135 S. Ct. 2443, 2447 (2015). A
Fourth Amendment “violation occurs when government
officers violate a person’s ‘reasonable expectations of
privacy.’” United States v. Jones, 565 U.S. 400, 406
(2012) (quoting Katz v. United States, 389 U.S. 347, 360
(1967) (Harlan, J., concurring). In addition, the Fourth
Amendment protects against the government’s
“physical intrusion of a constitutionally protected
area.” Florida v. Jardines, 569 U.S. 1, 5 (2013)
(internal quotation marks omitted). Warrantless
searches are “per se unreasonable,” subject to “a few
specifically established and well-delineated
exceptions.” Arizona v. Gant, 556 U.S. 332, 338 (2009)

App. 41
(internal quotation marks omitted). Among those
exceptions is the administrative search doctrine, which
permits government “searches for certain
administrative purposes without particularized
suspicion of misconduct, provided that those searches
are appropriately limited.” City of Indianapolis v.
Edmond, 531 U.S. 32, 37 (2000).
In support of Plaintiffs’ claim that the Ordinance
disclosure requirements violate the Fourth
Amendment, Plaintiffs rely principally on the United
States Supreme Court’s decision in Patel, 135 S. Ct.
2443. See Opp. at 6–13. At issue in Patel was a Los
Angeles ordinance that required hotel owners to (1)
keep records of certain information relating to hotel
guests; and (2) permit police inspection of the hotel
owners’ guest records “on demand.” 135 S. Ct. at 2447.
Failure to permit inspection was a criminal
misdemeanor. Id. at 2448. The United States Supreme
Court acknowledged that the Los Angeles ordinance, on
its face, might appear to satisfy the administrative
search exception to the warrant requirement. Id. at
2452. However, the Patel Court stated, “absent consent,
exigent circumstances, or the like, in order for an
administrative search to be constitutional, the subject
of the search must be afforded an opportunity to obtain
precompliance review before a neutral decisionmaker.”
Id. (citing See v. City of Seattle, 387 U.S. 541, 545
(1967)). The Los Angeles ordinance provided no such
precompliance review and permitted officers to arrest
a noncompliant hotel owner “on the spot,” which
created “an intolerable risk that searches authorized by
[the ordinance] will exceed statutory limits, or be used
as a pretext to harass hotel operators and their guests.”

App. 42
Id. at 2452–53. The United States Supreme Court thus
concluded that the Los Angeles ordinance was facially
invalid under the Fourth Amendment. Id. at 2456.
Plaintiffs contend that the Ordinance, like the Los
Angeles ordinance in Patel, violates the Fourth
Amendment because the Ordinance “promises criminal
sanctions for non-compliance . . . rather than an
administrative review process.” Id. at 14. It is true that
a government’s civil “monitoring program” may
implicate the Fourth Amendment. Grady v. North
Carolina, 135 S. Ct. 1368, 1371 (2015) (per curiam)
(“[T]he government’s purpose in collecting information
does not control whether the method of collection
constitutes a search.”). However, Plaintiffs fail to
articulate how the Ordinance disclosure requirements
implicate Plaintiffs’ protected constitutional interests.
Plaintiffs make only the conclusory allegation that
Plaintiffs’ business records are “private” and “not found
in the public domain.” FAC ¶ 17.
In Patel, the en banc Ninth Circuit had concluded
that the inspections under the Los Angeles ordinance
implicated hotel owners’ Fourth Amendment rights
because the inspections worked “both a physical
intrusion upon a hotel’s papers and an invasion of the
hotel’s protected privacy interest in those papers.” Patel
v. City of L.A., 738 F.3d 1058, 1061 (9th Cir. 2013) (en
banc). The hotel records contained “commercially
sensitive information . . . —e.g., customer lists, pricing
practices, and occupancy rates”; hence, the hotel
owners had a reasonable expectation of privacy in the
records. Id. at 1062. The City contends that Plaintiffs
lack a reasonable privacy interest in the information

App. 43
subject to the Ordinance’s disclosure requirements.
Mot. at 18.
In support, the City cites the Ninth Circuit’s recent
decision in San Francisco Apartment Association v. City
& County of San Francisco, 881 F.3d 1169 (9th Cir.
2018). In Apartment Association, the Ninth Circuit
addressed several constitutional challenges to a San
Francisco ordinance regulating buyout agreements
between landlords and tenants. Id. at 1173–74. The
San Francisco ordinance required landlords to submit
buyout agreements to the City for placement on a
publicly searchable database of buyout agreements
that included landlords’ “business contact information
[and] the address of any rental unit subject to a buyout
agreement.” Id. at 1178. The Ninth Circuit concluded
that the landlords lacked a privacy interest under the
California Constitution in the information listed on the
buyout agreements because the landlords had to share
similar information with the City in order to petition
for certain rent increases or to apply for condominium
conversions. Id. at 1178–79. Further, the Ninth Circuit
explained that “financial information relating to real
estate and land use transactions is regularly filed with
government entities and made publicly accessible.” Id.
at 1179.
Here, the City identifies several provisions in the
Ordinance and Regulations that require landlords to
submit information that is similar to the information
the Ordinance disclosure provisions require landlords
to submit. For example, under the Ordinance, a
landlord may file a petition to raise rent beyond the
amount permitted by the Ordinance. San Jose, Cal.,

App. 44
Code § 17.23.800; FAC, Ex. A at 29. In such a petition,
a landlord must include documentation, which may
include tax returns, “[r]eceipts, cancelled checks, and
detailed invoices,” and other evidence “that may tend
to show that rents were unusually low.” FAC, Ex. B at
19; see also id. at 30 (requiring landlord applying to
pass onto tenants the cost of capital improvements to
document “[t]he number of Rent Stabilized Units, the
occupancy status of each Rent Stabilized Unit, and the
Rent charged for each Rent Stabilized Unit” benefiting
from the proposed capital improvement). Moreover, the
Ordinance permits tenants to petition the City to
challenge an alleged rent overcharge or other violations
of the Ordinance. FAC, Ex. A at 19. Such a petition
may include documentation about the household
services the landlord provides to Plaintiff, and could
include other information about the tenants’ rent and
the landlord’s identity. See FAC, Ex. B at 11. Plaintiffs
do not allege or explain how the information implicated
by the Ordinance disclosure requirements differs
meaningfully from the information that landlords—and
their tenants—must or might include in the
aforementioned petitions.
Without such supporting facts, Plaintiffs’ allegation
that the Ordinance requires Plaintiffs to share “private
business records that is not found in the public domain”
is a legal conclusion. See Adams, 355 F.3d at 1183
(“[C]onclusory allegations of law and unwarranted
inferences are insufficient to defeat a motion to
dismiss.”). Thus, Plaintiffs’ Fourth Amendment claim
must be dismissed.

App. 45
B. Unconstitutional Conditions on Fourth
Amendment Rights
Plaintiffs allege that the disclosure requirements in
the Ordinance and Regulations violate the Constitution
“by imposing . . . an unconstitutional condition and
restriction on their ownership and renting of property.”
FAC ¶ 23. In the same paragraph, Plaintiffs also allege
that the imposition of such unconstitutional conditions
violates “the substantive and procedural components”
of the Due Process Clause. Id. In Plaintiffs’ briefing,
Plaintiffs contend that the Ordinance burdens
Plaintiffs’ Fourth Amendment rights because the
Ordinance “condition[s] an owner’s rights to raise rents
. . . on the [owner] forfeiting and relinquishing their
fundamental enumerated Fourth Amendment rights.”
Opp. at 16.
First, the unconstitutional conditions doctrine
“limits the government’s ability to exact waivers of
rights as a condition of benefits.” United States v. Scott,
450 F.3d 863, 866 (9th Cir. 2006). As explained above,
Plaintiffs have not adequately alleged that the
Ordinance’s disclosure requirements violate Plaintiffs’
Fourth Amendment rights. Absent a Fourth
Amendment right that Plaintiffs are forced to waive,
Plaintiffs cannot state an unconstitutional conditions
claim. Koontz v. St. Johns River Water Mgmt. Dist., 570
U.S. 595, 612 (2013) (“A predicate for any
unconstitutional conditions claim is that the
government could not have constitutionally ordered the
person asserting the claim to do what it attempted to
pressure that person into doing.”). Thus, Plaintiffs’

App. 46
Fourth Amendment unconstitutional conditions claim
must be dismissed.
Second, it is unclear whether Plaintiffs’ allegation
that the Ordinance violates “the substantive and
procedural components” of the Due Process Clause is a
separate allegation, or is derivative of Plaintiffs’
allegation that the Ordinance imposes unconstitutional
conditions on the exercise of Plaintiffs’ Fourth
Amendment rights. FAC ¶ 23. Plaintiffs’ due process
allegation appears in the same paragraph in the FAC
as Plaintiffs’ Fourth Amendment claim, and the FAC
includes no separate explanation for its basis. Id. In
Plaintiffs’ opposition, Plaintiffs characterize Plaintiffs’
due process argument as premised on “the
unconstitutional conditions doctrine in the land use
context.” Opp. at 22. Accordingly, the Court will
address Plaintiffs’ second unconstitutional conditions
argument below, in the context of Plaintiffs’ other land
use constitutional challenges.
C. Takings Clause
Plaintiffs allege that the disclosure requirements in
the Ordinance and Regulations violate their Fifth
Amendment “rights to be free of a taking of their
property without due process of law and without just
compensation.” FAC ¶ 24. Plaintiffs further allege that
the Court “has jurisdiction to hear the matter without
exhaustion of state remedies.” Id. ¶ 25. The City
contends that the Court lacks subject matter
jurisdiction over Plaintiffs’ Takings Clause claim
because Plaintiffs have not alleged that the takings
claims are ripe for review. Mot. at 9–10.

App. 47
The Takings Clause of the Fifth Amendment, as
applied to the states through the Fourteenth
Amendment, prohibits the government from taking
private property without providing just compensation.
Williamson Cty. Reg’l Planning Comm’n v. Hamilton
Bank of Johnson City, 473 U.S. 172, 194 (1985). “In
contrast to a physical taking, a regulatory taking
occurs where ‘government regulation of private
property [is] so onerous that its effect is tantamount to
a direct appropriation or ouster.’” Rancho de Calistoga
v. City of Calistoga, 800 F.3d 1083, 1088–89 (9th Cir.
2015) (quoting Lingle v. Chevron U.S.A. Inc., 544 U.S.
528, 537 (2005)). However, the United States Supreme
Court’s decision in Williamson “placed two hurdles in
the way of a takings brought in federal court against
states and their political subdivisions.” Levald, Inc. v.
City of Palm Desert, 998 F.2d 680, 686 (9th Cir. 1993).
First, an as-applied challenge “is not ripe until the
government entity charged with implementing the
regulations has reached a final decision regarding the
application of the regulations to the property at issue.”
Williamson, 473 U.S. at 186. Second, neither an
as-applied nor a facial challenge is ripe until the
plaintiff “seek[s] compensation through the procedures
the State has provided for doing so.” Id. at 194. A
plaintiff need not seek such compensation if doing so
would be futile. Levald, 998 F.2d at 686. Contrary to
the City’s contentions, the ripeness requirement is
prudential rather than jurisdictional. Rancho de
Calistoga, 800 F.3d at 1089.
Still, that prudential bar requires dismissal of
Plaintiffs’ takings claims. The FAC does not allege that
the City reached a final decision regarding the

App. 48
Ordinance’s applicability to Plaintiffs. Moreover,
Plaintiffs have not alleged that Plaintiffs attempted to
seek compensation for any alleged regulatory taking, or
that doing so would be futile. As such, Plaintiffs’ facial
and asapplied challenges are not ripe. See Williamson,
476 U.S. at 194; see also Hacienda Valley Mobile
Estates v. City of Morgan Hill, 353 F.3d 651, 657 (9th
Cir. 2003) (“When passing the local ordinance at issue
. . . municipalities generally have not had an
opportunity to address the financial impacts on
individual landowners. As a result, landowners must
take follow-up action to seek state remedies before
their claim is ripe.”).
In response, Plaintiffs point to the United States
Supreme Court’s grant of certiorari in Knick v.
Township of Scott, 862 F.3d 310 (3d Cir. 2017), cert
granted, 138 S. Ct. 1262 (2018). See Opp. at 19–21.
The United States Supreme Court granted certiorari on
the question “[w]hether the Court should reconsider the
portion of Williamson . . . requiring property owners to
exhaust state court remedies to ripen federal takings
claims . . . ?” Petition for Writ of Certiorari, Knick v.
Township of Scott, 138 S. Ct. 1262 (2018) (No. 17-647).
Plaintiffs thus suggest that the United States Supreme
Court may overrule Williamson’s ripeness
requirements. Opp. at 21.
However, even if Plaintiffs’ claims are ripe,
Plaintiffs fail to state facial or as-applied Takings
Clause claims. “Judicial decisions considering
regulatory takings claims are typically characterized
by essentially ad hoc, factual inquiries, designed to
allow careful examination of all relevant

App. 49
circumstances.” Colony Cove Properties, LLC v. City of
Carson, 888 F.3d 445, 450 (9th Cir. 2018) (internal
quotation marks omitted). Courts must consider factors
drawn from Penn Central Transportation Co. v. City of
New York, 438 U.S. 104 (1978), including: “(1) the
regulation’s economic impact on the claimant, (2) the
extent to which the regulation interferes with distinct
investment-backed expectations, and (3) the character
of the government action.” MHC Fin. Ltd. P’ship v. City
of San Rafael, 714 F.3d 1118, 1127 (9th Cir. 2013).
The City contends that Plaintiffs fail to allege any
facts relevant to each Penn Central factor. Mot. at 15.
Indeed, the FAC includes only the allegation that if
Plaintiffs fail to comply with the Ordinance and
Regulations, Plaintiffs “cannot increase rents on their
tenants.” See FAC ¶ 20. However, although landlords
of unregistered units may not raise rents, San Jose,
Cal., Code § 17.23.310(A), the Ordinance permits
landlords to petition for a rent increase in order to
receive a fair return. Id. at § 17.23.800. Plaintiffs’ lone
factual allegation does not plausibly state a claim for a
taking “functionally equivalent” to the government’s
seizure of property. See Concrete Pipe & Prods. of Cal.,
Inc. v. Constr. Laborers Pension Trust for S. Cal., 508
U.S. 602, 645 (1993) (“[M]ere diminution in the value
of property, however serious, is insufficient to
demonstrate a taking.”) (internal quotation marks
omitted). Plaintiffs also fail to articulate any factual
allegations relevant to the degree to which the
Ordinance disclosure requirements affect Plaintiffs’
distinct investment-backed expectations. Cf. Rancho de
Calistoga, 800 F.3d at 1091 (rejecting regulatory
takings claim because “when buying a piece of

App. 50
property, one cannot reasonably expect that property to
be free of government regulation such as zoning, tax
assessments, or, as here, rent control”). Thus,
Plaintiffs’ FAC fails to allege facts sufficient to state a
regulatory takings claim.
Instead, and as noted above, Plaintiffs in their
response brief appear to characterize the Takings
Clause claims as resting on the Ordinance’s imposition
of unconstitutional conditions. Opp. at 18–19. At a
basic level, Plaintiffs’ FAC includes no such allegation
connecting the Takings Clause and the doctrine of
unconstitutional conditions. Regardless, Plaintiffs’
purported unconstitutional conditions claim, which
rests on Koontz, 570 U.S. 595, has no merit. Plaintiffs’
argument appears to be that the Ordinance forces
landlords to choose between complying with the
Registry requirement or choosing not to raise rents.
Opp. at 25. In Koontz, the United States Supreme
Court held that the unconstitutional conditions
doctrine bars the government from either granting or
denying a government benefit based on whether “the
applicant turn[s] over property.” Id. at 606. In the
instant case, Plaintiffs have not alleged how the
Ordinance and Regulations require them to turn over
property, or how the Ordinance disclosure
requirements effectively require Plaintiffs to cede
property. Cf. id. at 612 (“A predicate for any
unconstitutional conditions claim is that the
government could not have constitutionally ordered the
person asserting the claim to do what it attempted to
pressure that person into doing.”).

App. 51
Accordingly, Plaintiffs’ Takings Clause claim must
be dismissed.
D. Equal Protection and Due Process
Claims
Plaintiffs allege that the disclosure requirements
violate the Equal Protection Clause because “similarly
situated property owners and operators whose
properties are not classified as subject to the ordinance
and regulations . . . have not, are not, being treated by
the City as [P]laintiffs are under the restrictions of the
[O]rdinance and [R]egulations.” FAC ¶ 26. Plaintiffs
also allege that because “Plaintiffs’ tenants . . . have a
fundamental liberty and property interest” and the
Ordinance infringes that interest, the Ordinance
“subjects [P]laintiffs to liability from such tenants.”
FAC ¶¶ 18–19.
As to the second allegation, Plaintiffs fail to allege
how the Ordinance affects Plaintiffs’ own liberty and
property interests. The City frames the inquiry as one
of standing, as the City contends that Plaintiffs “lack
standing” to assert their tenants’ rights. Mot. at 9.
However, Plaintiffs appear to raise their tenants’ rights
as part of Plaintiffs’ broader claim that the Ordinance
and Regulations impose unconstitutional conditions on
Plaintiffs. See Opp. at 25 (arguing that the Ordinance
forces Plaintiffs to choose between “disclosing the
tenants’ personal information violating their due
process rights (and possibly being sued) or not
complying with the Ordinance and suffering severe
criminal and economic sanction”). Thus, Plaintiffs do
not appear to attempt to assert their tenants’ rights.
More to the point, Plaintiffs do not articulate how the

App. 52
Ordinance and Regulations harm Plaintiffs’ own liberty
and property interests. As a result, to the extent that
Plaintiffs attempt to state a claim for a procedural due
process violation, the FAC fails to do so. Bd. of Regents
of State Colls. v. Roth, 408 U.S. 564, 569–70 (1972)
(holding that “[t]he requirements of procedural due
process apply only to the deprivation of interests
encompassed by the Fourteenth Amendment’s
protection of liberty and property”).
Second, the City contends that Plaintiffs have not
stated an Equal Protection Clause claim because
Plaintiffs have not alleged facts showing that the
Ordinance’s classifications lack a rational basis. Mot.
at 16. For example, the Ordinance applies to landlords
of buildings offered for rent before September 7, 1979,
but not to landlords of buildings offered for rent after
that date. San Jose, Cal., Code § 17.23.167(A). The
Ordinance also applies only to landlords of buildings
containing more than two rental units, which means
that landlords of duplexes are exempted. Id. at
§ 17.23.167(B)(4). Plaintiffs do not allege why the
distinctions in the Ordinance violate the Constitution,
but Plaintiffs’ Equal Protection Clause claim appears
to rest on the aforementioned distinctions. See FAC
¶ 26 (noting that “other rentals . . . are not [] being
treated by the City as plaintiffs are under the
restrictions of the ordinance and regulations”).
Plaintiffs do not allege that they are members of a
suspect class; accordingly, the Court applies rational
basis review to their Equal Protection Clause claims.
Dandridge v. Williams, 397 U.S. 471, 485 (1970); see
also Rancho de Calistoga, 800 F.3d at 1094 (holding

App. 53
that on rational basis review, “where a group possesses
distinguishing characteristics relevant to interests the
State has the authority to implement, a State’s decision
to act on the basis of those differences does not give rise
to a constitutional violation”) (internal quotation marks
omitted). The distinctions the Ordinance draws easily
withstand such review. The City evaluated whether to
subject landlords of certain duplexes to the Ordinance,
but determined that the City could not afford to add
more properties to rent control coverage without hiring
additional staff members. ECF No. 24-1, Ex. B. at
18–19 (letter to City Council from Department of
Housing director explaining why Ordinance did not
cover duplex owners). Accordingly, the City’s reason for
applying the rent control ordinance to some—but not
all—landlords was rational rather than arbitrary. See
Equity Lifestyle Props., Inc. v. Cty. of San Luis Obispo,
548 F.3d 1184, 1195 (9th Cir. 2008) (rejecting an Equal
Protection Clause challenge to a rent control ordinance
that affected only mobile home owners because the
county had determined that there was a short supply
of mobile homes in the county). The Ordinance thus
survives rational basis review.
Plaintiffs offer no argument in response, other than
to cite Orin v. Barclay, 272 F.3d 1207 (9th Cir. 2001),
for the proposition that Plaintiffs’ Equal Protection
Clause claims are “subsumed” under the Fourth
Amendment, and that strict scrutiny applies. Orin
involved a First Amendment claim, not a Fourth
Amendment claim. Id. at 1213 n.3. Moreover, Plaintiffs
in the instant case cite no authority for their conclusory
assertion that strict scrutiny applies. For the reasons
stated above, the Court must apply rational basis

App. 54
review to Plaintiffs’ challenge, and the Ordinance
survives such review.
Accordingly, Plaintiffs’ Equal Protection Clause
claim must be dismissed.
E. Contracts Clause
Plaintiffs allege that the Ordinance and Regulations
violate the Contracts Clause because the Ordinance
and Regulations “interfere[] with their private lease
and rental contracts with their tenants.” FAC ¶ 27. The
City contends that the FAC is “silent” as to how the
Registry affects Plaintiffs’ contracts with Plaintiffs’
tenants. Mot. at 22. In response, Plaintiffs contend that
Plaintiffs have stated a Contracts Clause claim because
the Ordinance “disturbs the privacy rights of the
parties contractual relationships” and the disclosure
requirements violates “the property owners Fourth
Amendment rights and the tenants due process privacy
rights” [sic]. Opp. at 26. Plaintiffs alternatively
“request leave to amend to specify the contractual
relationships at issue that give rise to the claim.” Id.
To determine whether a law affecting a pre-existing
contract violates the Contracts Clause, the Court must
apply a two-step test. Sveen v. Melin, 138 S. Ct. 1815,
1821 (2018). First, the Court asks whether the state
law substantially impairs a contractual relationship
based on “the extent to which the law undermines the
contractual bargain, interferes with a party’s
reasonable expectations, and prevents the party from
safeguarding or reinstating his rights.” Id. at 1821–22.
Second, if step one is satisfied, the Court asks “whether
the state law is drawn in an ‘appropriate’ and

App. 55
‘reasonable’ way to advance a ‘significant and
legitimate public purpose.’” Id. at 1822 (citing Energy
Reserves Grp., Inc. v. Kansas Power & Light Co., 459
U.S. 400, 411–12 (1983)). Here, Plaintiffs include only
the vague allegation that the Ordinance and
Regulations affect Plaintiffs’ contracts with their
tenants, but Plaintiffs do not specify how the
Ordinance disclosure requirements affect those
contracts. To the extent Plaintiffs specify how,
Plaintiffs contend only that the Ordinance implicates
Plaintiffs’ Fourth Amendment rights. See Opp. at 26.
For the reasons stated above, Plaintiffs have not stated
a Fourth Amendment claim.
Accordingly, Plaintiffs fail to allege facts sufficient
to state a Contracts Clause violation, and Plaintiffs’
Contracts Clause claim must be dismissed.
F. Leave to Amend
Having concluded that all of Plaintiffs’ claims
should be dismissed, the Court must consider whether
to grant Plaintiffs leave to amend. The Court cannot
conclude that amendment would be futile, and the
Court will thus grant Plaintiffs leave to amend the
deficiencies in the FAC. See Lopez, 203 F.3d at 1130
(“[A] district court should grant leave to amend even if
no request to amend the pleading was made, unless it
determines that the pleading could not possibly be
cured by the allegation of other facts.”).
IV.

CONCLUSION

For the foregoing reasons, the Court GRANTS the
City’s motion to dismiss the FAC without prejudice.

App. 56
Should Plaintiffs elect to file an amended complaint
curing the deficiencies identified herein, Plaintiffs shall
do so within thirty days of this Order. Failure to meet
this 30-day deadline or failure to cure the deficiencies
identified herein will result in a dismissal with
prejudice of the deficient claims. Plaintiffs may not add
new causes of action or parties without leave of the
Court or stipulation of the parties pursuant to Federal
Rule of Civil Procedure 15.
IT IS SO ORDERED.
Dated: October 4, 2018
/s/ Lucy H. Koh
LUCY H. KOH
United States District Judge

App. 57

APPENDIX C
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
Case No. 18-CV-02024-LHK
[Filed October 12, 2018]
________________________________
DEAN HOTOP, et al.,
)
)
Plaintiffs,
)
)
v.
)
)
CITY OF SAN JOSE,
)
)
Defendant.
)
_________________________________)
JUDGMENT
On October 4, 2018, the Court dismissed Plaintiffs’
First Amended Complaint (“FAC”) without prejudice.
ECF No. 36. On October 11, 2018, Plaintiffs filed a
notice of their intent not to amend the FAC pursuant
to the Court’s October 4, 2018 Order. ECF No. 38.
Instead, Plaintiffs elect to stand on the FAC. Id.; see
Edwards v. Marin Park, Inc., 356 F.3d 1058, 1063–65
(9th Cir. 2004). Accordingly, Plaintiffs’ FAC is
dismissed with prejudice. The Clerk shall enter
judgment in favor of Defendant. The Clerk shall close
the file.

App. 58
IT IS SO ORDERED.
Dated: October 12, 2018
/s/ Lucy H. Koh
LUCY H. KOH
United States District Judge

App. 59

APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-16995
D.C. No. 5:18-cv-02024-LHK
Northern District of California, San Jose
[Filed January 13, 2021]
___________________________________
DEAN HOTOP, et al.,
)
)
Plaintiffs-Appellants,
)
)
v.
)
)
CITY OF SAN JOSE, a municipal
)
corporation,
)
)
Defendant-Appellee.
)
____________________________________)
ORDER
Before: WATFORD, BENNETT, and LEE, Circuit
Judges.
The panel unanimously votes to deny the petition
for panel rehearing and rehearing en banc. The full
court has been advised of the petition for rehearing en
banc, and no judge requested a vote on whether to
rehear the matter en banc. Fed. App. P. 35. The

App. 60
petition for panel rehearing and rehearing en banc,
filed December 21, 2020, is DENIED.

App. 61

APPENDIX E
U.S. Constitution Amendment IV
The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated, and no
warrants shall issue, but upon probable cause,
supported by oath or affirmation, and particularly
describing the place to be searched, and the persons or
things to be seized.

App. 62

APPENDIX F
42 U.S. Code § 1983. Civil action for deprivation
of rights
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State or
Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States
or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable to
the party injured in an action at law, suit in equity, or
other proper proceeding for redress, except that in any
action brought against a judicial officer for an act or
omission taken in such officer’s judicial capacity,
injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief
was unavailable. For the purposes of this section, any
Act of Congress applicable exclusively to the District of
Columbia shall be considered to be a statute of the
District of Columbia.

App. 63

APPENDIX G
San Jose Municipal Code
Chapter 17.23 - RENTAL DISPUTE MEDIATION
AND ARBITRATION FOR DWELLING UNITS
EXCLUDING
MOBILEHOMES
AND
MOBILEHOME PARKS
Part 3 - INITIAL RENT AND RENT INCREASES;
PETITION AND HEARING PROCESS
17.23.310 - Limits on Rent Increases.
A. Annual Rent Increase Limit. The Rent of any Rent
Stabilized Unit may not be increased by more than the
Annual General Increase unless otherwise authorized
by Petition. If the Landlord has not substantially
complied with the City’s request to register or
re-register a Rent Stabilized Unit pursuant to the
procedures in the Regulations, the Landlord may not
increase the Rent for the Rent Stabilized Unit.
B. The “Annual General Increase” is limited to:
The monthly Rent charged for the previous
twelve (12) months for the Rent Stabilized Unit
multiplied by five percent (5%).
C. Rent Increase Frequency Limit. Not more than one
(1) Rent increase, including the Annual General
Increase, any increase allowed under Chapter 13 of the
Regulations, and any increase authorized by a final
decision after a Petition may be imposed in any twelve

App. 64
(12)-month period. An increase in Rent authorized by
a decision on a Petition filed pursuant to Section
17.23.350 C. or Part 8 of this Chapter may be imposed
after notice has been provided pursuant to California
Civil Code Section 827, if the decision states that the
initial increase is exempt from the twelve (12) month
interval requirement under this Section.
D. Rental Voucher Unit—Rent Increases. During the
time a Rental Unit serves as a Rental Voucher Unit,
the Initial Rent shall be subject to this Chapter, but its
Rent may be adjusted annually consistent with the
published rules of the applicable government agency in
lieu of the Rent adjustments allowed under this
Chapter.
Part 5 - ENFORCEMENT
17.23.500 - Penalties.
A. Penalty for Violations of this Chapter. In addition to
all other remedies provided by law, including those set
forth in Chapter 1.08 of Title 1 of the San José
Municipal Code, and as part of any civil action brought
by the City, a court may assess a civil penalty in an
amount up to the greater of two thousand five hundred
dollars ($2,500) per violation per day, or ten thousand
dollars ($10,000) per violation, payable to the City,
against any person who commits, continues, operates,
allows, suffers, or maintains any violation of a
provision of this Chapter 17.23, subject to California
Civil Code Section 1947.7, as amended.

App. 65
17.23.530 - Excessive Rents Demanded or Received;
Civil and Criminal Liability.
A. Misdemeanor. Any Landlord found to have received,
imposed, or demanded prohibited pass through
charges, other fees or charges or any Rent in excess of
the Rent allowed under this Chapter 17.23 and its
implementing Regulations shall be guilty of a
misdemeanor, subject to the provisions of California
Civil Code Section 1947.7, as amended.
B. Civil Penalties. Any person found to have
demanded, accepted, received or retained any payment
of Rent in excess of the Rent allowed under this
Chapter 17.23 and its implementing Regulations or
pass through charges, other fees or charges that are not
allowed under this Chapter 17.23, shall be liable to the
Tenant from whom such payment was demanded,
accepted, or received for the amount that was
impermissibly charged, plus damages as determined
and not to exceed five hundred dollars ($500) or three
(3) times the amount by which such payment exceeded
the Rent allowed, whichever is greater. Remedies
provided in this paragraph are in addition to any other
legal remedies and are not intended to be exclusive.
Part 6 - EVICTIONS - RENT STABILIZED UNITS
17.23.600 - Notices of Termination of Tenancy Mandatory Notice to City.
C. Notice of Re-Rental to the City. Unless the Landlord
is already obligated to re-register the Rent Stabilized
Unit on vacancy or re-rental pursuant to the
Regulations, once a Tenant Household has vacated a
Rent Stabilized Unit, such Landlord shall be required

App. 66
to provide the Director with the following information
in a form approved by the Director, subject to
California Civil Code 1947.7, as amended:
1.

The amount of Rent that the subsequent
Tenant is actually paying each month; and

2.

The physical address of the Rent Stabilized
Unit; and

3.

The name, of each subsequent Tenant; and

4.

A copy of the written rental agreement (if
any) between the Landlord and Tenant; and

5.

The reason the prior Tenant vacated the
Rent Stabilized Unit, if known; and

6.

Such other information as may be reasonably
requested by the City.

D. Use of Personal Information. Personally-identifying
information about Tenants and Tenant Households
received by the City pursuant to this Section shall be
used for investigation and prosecution of violations of
the Municipal Code or other applicable laws. Unless
the City receives permission from such individuals,
City staff shall not otherwise provide such information
to third parties unless required to do so by law or court
order. For so long as the City requires registry of rents
and requires the Landlord to provide the name of
present or former tenant, the following information,
when required to be provided by and received from the
Landlord is confidential and shall be treated as
confidential information within the meaning of the
Information Practices Act of 1977: the name of a

App. 67
present or former Tenant and any additional
information provided concerning the Tenant.
E. Each Violation a Separate Violation. For purposes
of assessing civil and criminal penalties, violations of
the requirements set forth in this Section shall be
considered separate violations of this Chapter.
Part 7 - TENANT BUYOUT AGREEMENTS
17.23.700 - Purpose.
The purpose of this Part 7 is to increase the fairness of
Buyout Offers and Agreements by requiring Landlords
provide Tenants with a City Disclosure form, and
permitting Tenants to rescind Buyout Agreements,
provided certain conditions are met, within forty-five
(45) days of executing the Buyout Agreement. An
additional goal is for the City to obtain data relating to
the prevalence of Buyout Agreements, so as to monitor
the level of tenant displacement, and regulate
compliance with the purposes of this Chapter.
17.23.705 - Tenant Buyout.
Subject to the requirements of Chapter 14 of the
Regulations, a Landlord may negotiate with a Tenant
to obtain a voluntary vacancy by agreement.
Part 8 - FAIR RETURN STANDARD
17.23.800 - Purpose.
A Landlord may Petition for a Rent adjustment in
order to obtain a fair return in the event that the other
increases allowed pursuant to the Apartment Rent
Ordinance do not provide a fair return. This Part sets

App. 68
forth the standards for determining whether or not a
Landlord is obtaining a fair return and what Rent
increase would be required to provide a fair return if a
Landlord is obtaining less than a fair return.
17.23.810 - Fair Return Standard.
A. Fair Return Standard. A fair return is the Base
Year Net Operating Income adjusted by the percentage
increase in the Consumer Price Index since the Base
Year. “Net Operating Income” is the Gross Income from
a Covered Property net of Operating Expenses, as such
amounts are calculated and adjusted pursuant to this
Part. Debt service costs are not included in calculating
Net Operating Income.
B. Base Year. The “Base Year” is the 2014 calendar
year, provided that where the Rent for Rent Stabilized
Units has been set in a prior fair return decision
regarding a Petition pursuant to this Part, in which
case the calendar year that was the Current Year in
the prior determination may be used as the Base Year
for the purposes of reviewing a subsequent fair return
Petition.
C. Current Year. The Current Year is the most recent
calendar year preceding the submission of a Petition
pursuant to this Part.
D. Calculation of Consumer Price Index. The
Consumer Price Index (“CPI-U”) for the Base Year
shall be 251.985, which equals the annual average for
2014 reported by the Bureau of Labor Statistics for the
CPI-U index for all urban consumers for all items for
the San Francisco-Oakland-San José area. The CPI-U
for the Current Year shall be the annual average for

App. 69
the Current Year reported by the Bureau of Labor
Statistics for the CPI-U index for all urban consumers
for all items for the San Francisco-Oakland-San José
area. In the event a successor index to the CPI-U index
for all urban consumers for all items for the San
Francisco-Oakland-San José area is established by the
Bureau of Labor Statistics, this calculation method
may be updated accordingly in the Regulations.
17.23.820 - Calculations of Gross Income and
Operating Expenses.
A. Calculation of Gross Income. For the purposes of
determining the Net Operating Income, Gross Income
shall be the sum of the following:
1.

Rent, calculated on the basis of one hundred
percent (100%) rental occupancy at the Rents
in effect at the end of the Base Year or
Current Year, as applicable; and

2.

Income from coin operated laundry facilities,
vending machines and similar income; and

3.

Interest from security and cleaning deposits
(except to the extent paid to Tenants); and

4.

All other income or consideration received or
receivable in connection with the use or
occupancy of the Rent Stabilized Units and
the Covered Property.

B. Adjustments of Gross Income.
1.

Vacancy and Unpaid Rent. Rents shall be
adjusted for uncollected rents due to vacancy
and unpaid Rent to the extent such are

App. 70
reasonable and beyond the control of the
Landlord. Adjustments pursuant to this
Section are subject to the limitation that the
ratio of uncollected Rents due to vacancies
and unpaid Rent in the Current Year shall
not exceed the ratio in the Base Year, unless
the Landlord can demonstrate that the
higher ratio is reasonable, is not the outcome
of asking Rents exceeding market rents, and
will likely be reoccurring.
2.

Separately Charged Fees. Gross Income shall
be adjusted to include other fees and charges
not included in Rent that are paid to the
Landlord or Landlord's designee by Tenants.
If the Landlord collects any fees or charges
that are not allowed under the Apartment
Rent Ordinance, this fact may be considered
in the determination on the Petition. In no
event shall the collection of unauthorized
fees or charges in the Base Year or Current
Year be applied so as to result in a Rent
increase to the Tenant.

3.

Owner Occupied Rental Units or Rental
Units Otherwise Not Rented at Market
Levels. If a Rent Stabilized Unit is not rented
in an arm’s length transaction during the
Base Year or Current Year or a portion
thereof, the potential market rental income
for such Rent Stabilized Units shall be
included in calculating adjustments to Gross
Income, which income shall be estimated
based on the Rents of comparable Rental

App. 71
Units on the Covered Property, or if there are
no comparable Rental Units on the Covered
Property, the current market rents of
comparable Rental Units in the immediate
area.
4.

Increases in Rent Based on Vacancy
Decontrol. The Rent of Rent Stabilized Units
that received a Rent increase following a
valid vacancy decontrol pursuant to
California Civil Code Section 1954.53 at any
time from the first date of the Petition’s
Current Year through the date of the last
hearing on the Petition, shall be computed at
the Rent Stabilized Unit’s new Rent after
vacancy, for all twelve (12) months of the
Petition’s Current Year. In addition, if the
Rent Stabilized Unit is eligible for an Annual
General Increase during any month of the
Current Year, the general adjustment shall
be included for such months.

5.

Illegal or Uninhabitable Rentals during the
Base Year. If a Rent Stabilized Unit was
rented in violation of the Municipal Code
during the Base Year, the Base Year rent for
that unit shall be established pursuant to
Section 17.23.820.B.3, unless the Rent
Stabilized Unit was uninhabitable in the
Base Year. If a Rent Stabilized Unit is
uninhabitable in the Base Year, any
adjustment to income shall be made in
consideration of the duties of the Landlord
under law and the purpose of this Chapter.

App. 72
6.

Other Income in Violation of Municipal or
State Law. If not already accounted for as
Rent, Gross Income shall be adjusted to
include other income to a Landlord from
renting a Rent Stabilized Unit in violation of
the City’s Short Term Rental Ordinance,
Part 2.5 of Chapter 20.80, in violation of any
other local or state law or regulation. If the
Landlord earns income in violation of the
law, this fact may be considered in the
determination on the Petition. In no event
shall the collection of unpermitted or illegal
Rent or Gross Income in the Base Year or
Current Year be applied so as to result in a
Rent increase to a Tenant Household.

C. Calculation of Operating Expenses. For the
purposes of determining Net Operating Income,
Operating Expenses shall include the following
expenses to the extent they are incurred in connection
with the operation of the Covered Property:
1.

Annual fees assessed under Chapter 17.23 to
the extent that they are not passed through
to Tenants;

2.

Business license fees;

3.

Real property taxes;

4.

Utility costs paid by the Landlord to the
extent that they are not passed through to
Tenants;

5.

Insurance;

App. 73
6.

Normal and reasonable repair and
maintenance expenses for one (1) or more
Rental Units and the Covered Property.
Repair and maintenance expenses shall
include, but not be limited to, building
maintenance including carpentry, painting,
plumbing and electrical work, supplies,
equipment, refuse removal, security services
or systems, cleaning, fumigation,
landscaping, and repair or replacement of
furnished appliances, drapes, and carpets;

7.

Reasonable
management
expenses
(contracted or owner performed), including
necessary and reasonable advertising,
accounting, other managerial expense.
Management expenses are presumed to be
six percent (6%) of Gross Income, unless
established otherwise. Management expenses
in excess of eight percent (8%) of Gross
Income are presumed to be unreasonable and
shall not be allowed unless it is established
that such expenses do not exceed those
ordinarily charged by commercial
management firms for similar residential
properties;

8.

Attorneys’ fees and costs that are:
a. Incurred in connection with successful
good faith attempts to recover Rents owed
or with successful unlawful detainer
actions not in violation of applicable law,
to the extent the same are not recovered
from Tenants;

App. 74
b. Legal expenses that are necessarily
incurred in dealings with respect to the
normal operation of the Rent Stabilized
Units or Covered Property, to the extent
such expenses are not recovered from
adverse or other parties;
c. Reasonable and necessary costs incurred
in obtaining a Rent increase pursuant to
this Chapter, including administrative or
judicial proceedings in connection with
this Chapter, except where the
pass-through of such expenses would
constitute a violation of public policy or
would contravene the exclusion in Section
17.23.820.D.5.
Any attorneys’ fees and costs included in
Operating Expenses pursuant to this Section
shall be amortized over a period of five (5)
years, unless it is demonstrated that an
alternate amortization period would be more
reasonable and more consistent with the
purposes of this Chapter.
9.

Replacement of facilities, materials or
equipment not included in Section
17.23.820.C.6 necessary to maintain the
same level of services as previously provided,
to the extent that they are not passed
through to Tenants and subject to the
condition that said expenses shall be
amortized in accordance with the standards
for Operating Expense amortization in the
Regulations.

App. 75
D. Exclusions from Operating Expenses. For the
purposes of determining Net Operating Income,
Operating Expenses shall not include:
1.

Avoidable and unnecessary expenses
incurred during or since the Base Year
including expenses for additional
maintenance and repair work which would
not have been necessary if the maintenance
had not been unreasonably deferred by the
Owner or a prior Owner;

2.

Debt service, including mortgage interest
and principal payments and other expenses
associated with obtaining debt services,
including but not limited to appraisal and
title insurance costs;

3.

Fees, other than fees expressly authorized by
Section 17.23.820.C;

4.

Penalties, fees or interest imposed for
violation of this Chapter or any other law;

5.

Legal expenses excluded as set forth in this
Chapter or the Regulations;

6.

Contributions to lobbying efforts or
organizations which lobby on behalf of
apartment owners on local, state or federal
legislative issues;

7.

Depreciation;

8.

Any expenses for which the Landlord has
been or was eligible for reimbursement by
any rebate or discount, Security Deposit,

App. 76
insurance, judgment for damages, settlement
or any other method or device;
9.

Any expense incurred in conjunction with the
purchase, sale, lease (but not including
individual rental agreements with Tenants)
financing or re-financing of the building that
contains the Rent Stabilized Units,
including, but not limited to, loan fees,
payments to real estate agents or brokers,
appraisals, legal fees, accounting fees, etc.;
and

10.

Any other expense that does not benefit the
Covered Property, including, but not limited
to, the cost of or forming a corporation,
partnership or other entity or buying out a
stockholder or partner of the Landlord.

E. Adjustments to Operating Expenses.
1.

Interest Allowance for Amortized Expenses.
Allowances for amortized Operating
Expenses shall include an interest allowance
as provided in the Regulations.

2.

Adjustment of Unusually Low or High
Expenses. A claimed expense(s) for a
particular type of Operating Expense shall be
adjusted if the claimed expense(s) is:
a. Not representative of the annual
recurring level of the expense; or
b. In the case of Base Year expenses, not a
reasonable representation of average

App. 77
expenditures for that item in the years
preceding and following the Base Year; or
c. In the case of Current Year expenses, is
not a reasonable estimate of future
recurring annual expenditures for that
item.
Unusually high or low expenses in a
particular year shall be adjusted to allow for
a reasonable comparison between the annual
recurring level of the expense(s) in the Base
Year and the Current Year. This adjustment
may be made by using an average of the
particular expense over a number of years or
amortizing an amount that is above the
average, or using an industry average or
adjusting expense levels from other years by
the CPI-U or by some other reasonable
methodology. In making such adjustments
for specific items, the goal shall be to
establish an amount for that particular
Operating Expense that most reasonably
serves the objectives of obtaining a
reasonable comparison between the recurring
level of expense(s) in the Base Year and the
Current Year.
3.

Amortization of Non-recurring expenses.
Non-recurring expenses which are
“substantial” shall be amortized over a
reasonable period. For purposes of this
paragraph, non-recurring expenses are
substantial if they exceed one (1%) of the

App. 78
annual Rent (as determined pursuant to
Section 17.23.820.A.1).
4.

Calculation of Management Expenses. It
shall be presumed that management
expenses increased by the percentage
increase in the CPI-U between the Base Year
and the Current Year, unless the Landlord
can demonstrate that the level of
management services that are beneficial to
the Tenants has increased. A change from
owner management in the Base Year to third
party management in the Current Year, in
itself, shall not be considered an increase in
management services beneficial to the
Tenants.

5.

Mixed Use Properties; Segregation of
Expenses and Income. If a portion of the
Covered Property is not used as residential
rental property with Rent Stabilized Units or
includes units which are not rent stabilized,
this must be declared in the Petition, and
any Income and Operating Expenses must be
fairly allocated, consistent with the purposes
of this Chapter, between the other uses and
the rent stabilized portion of the property
covered by the Petition.

6.

Apportionment of Operating Expenses. In the
event that a particular Operating Expense
covers several years of costs, the costs shall
be fairly allocated to the year that they are
attributable to, even if they were paid for in
a different year.

App. 79
17.23.830 - Adjustment of Base Year Net Operating
Income.
A. Presumption of Fair Return. The Apartment Rent
Ordinance presumes that the Landlord received a fair
return in the Base Year.
B. Rebutting the Presumption. The presumption that
the Landlord received a fair return in the Base Year
based on reasonable expenses may be overcome by
sufficient evidence showing that income was unusually
low or expenses were unusually high for a particular
Covered Property in the Base Year as described in this
Part.
C. Authority to Adjust Net Operating Income. The
Hearing Officer may adjust the Base Year Net
Operating Income if the Hearing Officer finds:
1.

The Landlord’s Operating Expenses in the
Base Year were unusually high or low in
comparison to other years due to unusual
circumstances. In such instances,
adjustments may be made in calculating
Operating Expenses so the Base Year
Operating Expenses reflect average expenses
for the Covered Property over a reasonable
period of time. The Hearing Officer shall
consider the following factors in making this
finding:
a. The Landlord made substantial Capital
Improvements during the Base Year,
which were not reflected in the Base Year
rents;

App. 80
b. Substantial repairs exceeding one (1%) of
the annual Rent (as determined pursuant
to Section 17.23.820.A.1) were made due
to damage caused by uninsured disaster
or vandalism, provided that the property
was not uninsured or unreasonably
underinsured as determined by the
Hearing Officer, which were not reflected
in the Base Year rents;
c. Maintenance and repair were below
accepted standards or resulted from the
unreasonable deferral of other repairs or
work;
d. Other expenses were unreasonably high
or low, notwithstanding prudent business
practice.
2. The Landlord’s Gross Income during the Base
Year was unusually high or low. In such
instances, adjustments may be made in
calculating Gross Income consistent with the
purposes of this Chapter. The Hearing Officer
shall consider the following factors in making
this finding:
a. The Gross Income during the Base Year was
unusually low because some Tenants had
unusually low Rents for the quality, location,
age, amenities and condition of the housing
as compared to the Rent for comparable units
without housing violations in the immediate
area in which the Rent Stabilized Unit is
located. In the event that a claim is made

App. 81
pursuant to this Section, the Landlord shall
pay for an appraisal of Base Year rents for
comparable buildings made by an appraiser
selected by the City. The appraisal, which
shall be presented as evidence, shall be
conducted in a manner consistent with the
standards in the Regulations.
b. The Gross Income during the Base Year was
significantly lower than normal because of
destruction of all or part of the premises
and/or temporary eviction for construction or
repairs;
c. There was a special relationship between the
Landlord and Tenant (such as a family
relationship) resulting in abnormally low
rent charges;
d. The Rents had not been increased for five (5)
years preceding the Base Year;
e. The Tenant lawfully assumed maintenance
responsibilities in exchange for low Rent
increases or no Rent increases; or
f. Other special circumstances which establish
that the Rent was not set as the result of an
arms-length transaction.
17.23.840 - Establishment of Base Year Operating
Expenses in the Absence of Expense Records.
If Base Year Operating Expense information is
unavailable, the Landlord shall submit a request to the
City to accept the Petition without complete Base Year

App. 82
Operating Expense information in a manner consistent
with the standards in the Regulations. In the absence
of Base Year Operating Expense information, it shall
be presumed that Operating Expenses have increased
by the same percentage as the CPI-U since the Base
Year, except that data or rate information or other
sources of cost information may be considered in
estimating the level of particular Operating Expenses
in the Base Year. Information on increases or decreases
in costs between the Base Year and the Current Year
may be introduced by the Landlord, Tenant or
members of the Tenant Household, City staff, and/or
the Hearing Officer.
17.23.845 - Purchasers of Rent Stabilized Properties
After the Base Year.
If the Landlord can show that the Landlord purchased
the Covered Property between January 2015 and May
2016 in an arm’s length transaction, and that
reasonable attempts were made to obtain the records
regarding Gross Income from the prior owner, and no
information on the Base Year Gross Income is available
from Tenants or City Staff, the Landlord may request
to the City to accept a Petition for an adjustment under
Section 17.23.820 using the year of purchase as an
Alternative Base Year, in which case, the provisions of
Section 17.23.810 shall be adjusted accordingly.
17.23.850 - Allocation of Rent Increases.
Rent increases resulting from a Landlord Petition for
fair return shall be allocated equally among all Rent
Stabilized Units in the Covered Property; subject to the
condition that the Hearing Officer, in the interests of

App. 83
justice, shall have the discretion to apportion the Rent
increases in another manner necessary to ensure
fairness.
17.23.860 - Authority to Insure a Fair Return.
If a court finds that a Landlord has been denied a fair
return, notwithstanding any other provision in this
Section, the Hearing Officer may provide for a Rent
adjustment that is adequate to provide a fair return.
17.23.870 - Landlords to Retain 2014 Records.
Landlords are required to keep all financial records for
2014 which may be necessary for making a Net
Operating Income determination. Failure to retain
such records of Base Year Operating Expenses may
result in the loss of the ability to demonstrate the need
for a fair return Rent increase after September 1, 2016.
Part 9 - RENT REGISTRY
17.23.900 - Rent Registry.
A. Rent Registration. The procedures for registration
shall be established in this Part and the Regulations.
All registration requirements are subject to California
Civil Code Section 1947.7, as may be amended. The
Landlord shall complete and submit to the Director a
registration for each Rent Stabilized Unit on a City
approved form, annually unless some other interval is
specified by the City in the Regulations.
B. Copy of Registration to Tenant. If requested by the
City, each Landlord shall provide to an adult member
of the Tenant Household of a Rent Stabilized Unit a
true and correct copy of the completed registration form

App. 84
that pertains to their Rent Stabilized Unit within ten
(10) days of submission to the Director. The Landlord
may redact any information that does not pertain to
that Rent Stabilized Unit except the name and address
of the Landlord.
C. Regulations. The Regulations adopted by the City
Manager for the implementation and administration of
this Chapter 17.23 may address the contents and
submission of registrations, including deadline for
submissions by Landlords.
D. Implementation of an Alternate Registry Procedure.
Notwithstanding Section 17.23.900.A, the City Council
by resolution may, at any time after the second annual
registration cycle is complete, change to another
interval for, or vacancy-based, registration.
E. Landlord Tenant Collusion. It shall be a violation of
this Chapter to report an amount of Rent for a Rent
Stabilized Unit to the Director other than the actual
amount paid by the Tenant Household for the use and
occupancy of the Rent Stabilized Unit, or in the case of
a Rental Voucher Unit, the sum of the rent paid by the
Tenant and government agency.
F. Upon failure to submit the registration or
re-registration for a Rent Stabilized Unit required
pursuant to the Regulations within thirty (30) days of
the date the registration or re-registration is due, the
Landlord shall pay a late registration fee as set forth in
the schedule of fees adopted by resolution of the City
Council.

App. 85

APPENDIX H
CITY OF SAN JOSE, CALIFORNIA
REGULATIONS FOR
CHAPTER 17.23 INCLUDING APARTMENT
RENT ORDINANCE
Chapter 4
REGISTRATION AND FEE
4.05 Contents of Registration Form. The registration
form shall include the following information as of the
date specified on the form:
1.

The address of the Rent Stabilized Unit; and

2.

The name and address of each person or
entity that is the Landlord, or if more than
one, each Landlord of the Rent Stabilized
Unit; and

3.

The occupancy status of the Rent Stabilized
Unit and, if occupied, the commencement
date of the current tenancy; and

4.

History of the Rent charged for the use and
occupancy of the Rent Stabilized Unit; and

5.

The amount of security deposit charged at
the inception of the tenancy.

App. 86
6.

Whether the Rent Stabilized Unit is
sub-metered, master-metered, or unmetered.

7.

The number of Tenants occupying the unit,
and the Tenants’ names.

8.

Household Services that are being provided
at the inception of the Tenancy.

9.

The signature of the Landlord of the Rent
Stabilized Unit affirming under penalty of
perjury that the information provided in the
annual registration is true and correct; and

10.

Such other information reasonably requested
by the City.
Chapter 8

LANDLORD FAIR RETURN PETITIONS;
HEARINGS AUTHORIZED
8.02.2
Supporting Evidence. A Petition for a fair
return must include at least three (3) sets of copies of
all evidence the Landlord is relying on to support his or
her claim, marked accordingly. Receipts, cancelled
checks, and detailed invoices are the best
documentation.
a. Tax returns and ledgers may be
submitted as part of the supporting evidence,
however, tax returns alone are not accepted
as sufficient evidence for Current Year
claims, or for any year less than three (3)

App. 87
years prior to the Current Year. Copies of
contemporaneously prepared ledgers alone
are not accepted as sufficient evidence for the
Current Year.
b. Evidence that may tend to show that
rents were unusually low for the quality,
location, age, amenities and condition of the
housing includes but is not limited to
evidence of rents collected in comparable
buildings located in the same neighborhood.
c. Evidence that may tend to show
destruction or vandalism of the building or
units includes contemporaneous insurance
claims.
Chapter 9
LANDLORD PETITIONS FOR PASS THROUGH
OF CHARGES FOR SPECIFIED
CAPITAL IMPROVEMENTS;
ADMINISTRATIVE DECISIONS AUTHORIZED
9.02.1
Petition Filing Requirements. A Landlord
seeking to pass through all or a portion of costs for a
Specified Capital Improvement may file a Specified
Capital Improvement Petition on a City petition form
with all required supporting documentation. A Petition
cannot be filed until the work is completed. Supporting
documentation must be marked on each page with the
specific petition form item it is intended to support. The
Landlord must provide the following information and
supporting documentation as identified below:

App. 88
a. The type or form of Specified Capital
Improvement(s) for which a pass through is
requested, identifying the applicable
amortization period from Appendix B to
these Regulations;
b. Whether a similar Housing Service was
previously provided to one or more Tenants
to which the Landlord proposes to pass
through costs of the Specified Capital
Improvement, and if so, a description of the
existing Housing Service that was improved
or increased by the Specified Capital
Improvement;
c. The total cost of the Specified Capital
Improvement to the Landlord together with
the actual invoices and proof of payment;
d. The number of Rent Stabilized Units, the
occupancy status of each Rent Stabilized
Unit, and the Rent charged for each Rent
Stabilized Unit that benefits from the
Specified Capital Improvement;
e. The proposed pro rata, amortized cost of
the Specified Capital Improvement to be
passed through to each occupied Rent
Stabilized Unit.
f. The date that the Specified Capital
Improvement(s) was completed.

App. 89
g. A copy of the building permit(s) and final
inspection(s).

